1

APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Third Circuit
(April 22, 2019)
A-l
Appendix B Judgment in the United States Court
of Appeals for the Third Circuit
(April 22, 2019)
A-12
Appendix C Memorandum in the United States
District Court for the Eastern District
of Pennsylvania
(November 13, 2018)
A-14
Appendix D Order in the United States District
Court for the Eastern District of
Pennsylvania
(November 13, 2018)
A-26
Appendix E Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Third Circuit
(June 12, 2019)
A-28
Appendix F Rule 15(a)(1)(B) Amended Complaint
in the United States District Court for
the Eastern District of Pennsylvania
(August 2, 2018)
A-30
Appendix G Affidavit of David B. Lehman in the
United States District Court for the
Eastern District of Pennsylvania
(August 16, 2018)
A-43

11

Appendix H Order in the Court of Common Pleas,
Chester County, Pennsylvania
(July 12, 2016)
A-47
Appendix I Order in the Court of Common Pleas,
Chester County, Pennsylvania
(July 11, 2016)
A-50
Appendix J Order in the Court of Common Pleas,
Chester County, Pennsylvania
(January 5, 2015)
A-80
Appendix K Pa.R.Civ.P. 1042.3 Certificate of
Merit as to Attorney Defendants
James S. Tupitza. Esq. and Tupitza &
Associates, P.C. in the Court of
Common Pleas, Chester County,
Pennsylvania
(January 22, 2013)
A-83

A-l

APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-3635
[Filed April 22, 2019]
BONNIE CRUICKSHANK-WALLACE;
WILLIAM WALLACE,
Appellants
v.
CNA FINANCIAL CORPORATION;
CONTINENTAL CORPORATION;
CONTINENTAL CASUALTY CO;
COLUMBIA CASUALTY CO

)
)
)
)
)
)
)
)
)
)

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-18-cv-02769)
District Judge: Honorable Gerald J. Pappert
Submitted Pursuant to Third Circuit LAR 34.1(a)
April 22, 2019
Before: CHAGARES, BIBAS, and GREENBERG,
Circuit Judges

A-2
(Opinion filed April 22, 2019)
OPINION*
PER CURIAM
Bonnie Cruickshank-Wallace and William Wallace
(collectively, Appellants) appeal the District Court’s
grant of two motions to dismiss: the first pursuant to
Federal Rule of Civil Procedure 12(b)(6) based on the
doctrine of res judicata and the second pursuant to
Rule 12(b)(2) for a lack of personal jurisdiction. For the
following reasons, we will affirm.
I.
This case stems from state court proceedings that
had their genesis over twenty years ago. In 1998, a
bank sued Appellants in Maryland state court for
defaulting on loans and receiving fraudulent
conveyances. In 2006, at the close of proceedings in the
Maryland state court, Appellants retained Philadelphia
firm Klehr, Harrison, Harvey, Branzburg, and Ellers,
LLP (Klehr) to sue the bank for abuse of process. That
case was removed to federal court and ultimately
dismissed.
Immediately following the dismissal, Appellants
retained Gerald P. Egan and the Egan Young Law
Firm to sue the Klehr firm for legal malpractice in
Pennsylvania state court. The court granted summary

* This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

A-3
judgment for the Klehr firm. Appellants then retained
James Tupitza to handle the appeal, which was
ultimately unsuccessful.
Subsequently, Appellants, proceeding pro se, sued
Egan for malpractice.1 At the same time, Appellants
sued Tupitza for malpractice in the Chester County
Court of Common Pleas, and eventually amended their
complaint to name CNA Financial Corporation (CNAF),
Continental Casualty Company (Continental), and
Columbia Casualty Company (Columbia) as additional
defendants. In addition to various malpractice claims
against Tupitza, Appellants alleged that CNAF,
Continental, and Columbia insured both Tupitza and
the Klehr firm, and accused them of concerted tortious
conduct, tortious interference with Tupitza’s contract,
and agency liability for Tupitza’s alleged breach of
fiduciary duties.
The Common Pleas Court dismissed all claims
against CNAF for lack of personal jurisdiction, as the
record did not demonstrate that CNAF controlled
Continental or Columbia. Dkt. #13-8. The court
granted summary judgment in favor of Tupitza because
Appellants did not produce an expert witness, which
the court concluded was required to show that Tupitza
committed legal malpractice.2 As a result, the court
reasoned that the claims against Continental and
Columbia also failed, since those “derivative claims
Egan was ultimately granted summary judgment.
2 Appellants had filed a Pa. R. Civ. P. 1042.3(a)(3) certificate of
merit certifying that, in their view, proof of Tupitza’s alleged
malpractice would not require expert testimony.

A-4
could only succeed ... if the [c]laims against Tupitza
were successful.” Dkt. #13-6 at 16. The Superior Court
of Pennsylvania affirmed the summary judgment. See
Cruickshank-Wallace v. CNAFin, Corn,. No. 2403 EDA
2016, 2017 WL 4231601, at *1 (Pa. Super. Ct. Sept. 25,
2017) (not precedential opinion).
Appellants filed the current suit against CNAF,
Continental, Columbia, and The Continental
Corporation (TCC)3 (collectively, Appellees) two weeks
after the Supreme Court of Pennsylvania denied
Appellants’ petition for allowance to appeal the state
court judgment. Appellants later filed an amended
complaint, in which they alleged claims virtually
identical to those dismissed by the state court:
concerted tortious conduct, tortious interference with
Tupitza’s contract with Appellants, liability in agency
for Tupitza’s conduct, and liability for causing Tupitza
to violate fiduciary duties. Unlike the earlier suit,
Tupitza was not named as a defendant.
CNAF, Continental, and Columbia filed a joint
motion to dismiss on the grounds of res judicata. TCC
filed a separate motion to dismiss for lack of personal
jurisdiction, and, alternatively, joined in the other
motion to dismiss filed by CNAF, Continental, and
Columbia. The District Court granted the motions to
dismiss, and Appellants appealed.
II.
We have jurisdiction to review the District Court’s
order pursuant to 28 U.S.C. § 1291. We review de novo
3 TCC is an alleged subsidiary of CNAF.

A-5
the District Court’s dismissal based on res judicata and
a lack of personal jurisdiction. See Newark Cab Ass’n
v. City of Newark, 901 F.3d 146, 151 (3d Cir. 2018)
(Rule 12(b)(6) standard); Elkadrawy v. Vanguard
Group, Inc., 584 F.3d 169, 172 (3d Cir. 2009) (res
judicata standard); Eurofins Pharma US Holdings v.
BioAlliance Pharma SA, 623 F.3d 147, 155 (3d Cir.
2010) (personal jurisdiction standard).
A. The District Court lacked personal
jurisdiction over TCC.
The District Court concluded that it lacked personal
jurisdiction over TCC, and that Appellants did not offer
any facts to overcome TCC’s defense or rebut TCC’s
representation that it is a holding company with no
presence or operations in Pennsylvania. We agree.
A District Court typically exercises personal
jurisdiction according to the law of the state where it
sits, in this case Pennsylvania. See Fed. R. Civ. P.
4(k)(l)(A). The Pennsylvania long-arm statute provides
for jurisdiction “based on the most minimum contact
with th[e] Commonwealth allowed under the
Constitution of the United States.” 42 Pa. Cons. Stat.
Ann. § 5322(b). “Accordingly, in determining whether
personal jurisdiction exists, we ask whether, under the
Due Process Clause, the defendant has certain
minimum contacts with [Pennsylvania] such that the
maintenance of the suit does not offend traditional
notions of fair play and substantial justice.” O’Connor
v. Sandy Lane Hotel Co., 496 F.3d 312, 316 (3d Cir.
2007) (alteration in original) (internal quotations
omitted).

A-6
Here, TCC proffered a sworn affidavit detailing its
lack of connection to Pennsylvania. Appellees’ Br.
10—11; Dkt. #12-4. Once TCC raised the defense of lack
of personal jurisdiction, Appellants bore the burden, by
offering affidavits or other competent evidence, to
establish that the District Court had general or specific
personal jurisdiction over TCC. See O’Connor, 496 F.3d
at 316 (noting the two types of personal jurisdiction);
Metcalfe v. Renaissance Marine, Inc., 566 F.3d 324, 330
(3d Cir. 2009).
Accepting all of Appellants’ factual allegations as
true, see Pinker v. Roche Holdings Ltd., 292 F.3d 361,
368 (3d Cir. 2002), the only jurisdictional facts alleged
are that TCC shares an office and some employees in
Chicago with CNAF. See Amended Compl.
9.
Appellants mistakenly assert that 40 Pa. Stat. Ann.
§ 26 gives Pennsylvania jurisdiction “over any
business” that aids in the business of insurance within
the Commonwealth.4 They also allege, without support,
that TCC and the other Appellees are all a part of a
“corporate combine.” Appellants’ Br. 14. We agree with
the District Court that these representations fail to
carry Appellants’ burden to rebut TCC’s defense of a
lack of personal jurisdiction.

4 Appellants complain in their brief that the District Court did not
address their argument about this statute. However, Appellants
grossly misquote and misrepresent the substance of the statute.
Compare Appellants’ Br. 14, with 40 Pa. Stat. Ann. § 26. In any
event, TCC is a holding company which does not engage in the
business of insurance such that the statute, as it is represented by
Appellants, would even apply.

A-7
B. Res judicata bars claims
against Continental and Columbia.
The District Court determined that claim preclusion
barred the claims alleged against Continental and
Columbia. We agree. For claim preclusion, a defendant
must show that there has been “(1) a final judgment on
the merits in a prior suit involving (2) the same parties
or their privies and (3) a subsequent suit based on the
same cause of action.” Davis v. Wells Fargo, 824 F.3d
333, 341 (3d Cir. 2016) (quotation marks omitted).
Appellants raise two arguments on appeal. First,
they argue that the causes of action are not the same
because their suit in state court alleged negligent
malpractice on the part of Tupitza, whereas, here, they
are alleging intentional torts on the part of Continental
and Columbia. Appellants’ Br. 18. However, a mere
change in the legal theory under which Appellants now
pursue their claims will not prevent the application of
the doctrine of res judicata. See Blunt v. Lower Merion
Sch. Dist., 767 F.3d 247, 277 (3d Cir. 2014) (noting we
take a “broad view” when considering what constitutes
the same cause of action, and whether res judicata
applies turns on the “essential similarity” of the
underlying events giving rise to the legal claims). Here,
Appellants’ current claims are derived from the same
set of underlying facts as their prior claims, and the
witnesses and documents necessary for trial are also
the same. See id. (noting the factors we consider when
analyzing essential similarity). Even if we did not view
their claims as essentially the same, it is clear
Appellants could have brought these intentional tort
claims in the state court suit. See id. (noting res

A-8
judicata bars not only claims brought in previous
litigation, but also claims that could have been
brought).
Second, Appellants argue the state court decision
was based on a “technicality” rather than a final
judgment on the merits. Appellants’ Br. 17-18. They
maintain that the court never reached the merits of
their claims since it determined that expert testimony
was necessary but ultimately precluded, due to
Appellants’ binding Pa. R.C.P. 1042.3(a)(3) certificate
of merit. See Pa. R. Civ. P. 1042.3(a)(3). Appellants’
“technicality” argument ignores their election to pursue
their claims in this manner, and, under Pennsylvania
law, that election was binding and dispositive of the
merits of their claims. See McCool v. Dep’t of Corr., 984
A.2d 565, 571—72 (Pa. Commw. Ct. 2009) (noting
certificates of merit are binding, and because the
plaintiff could not pursue his claim without the aid of
expert testimony, his complaint failed to state a claim),
as amended (Oct. 28, 2009); see also Hubicki v. ACF
Indus., Inc., 484 F.2d 519, 524 (3d Cir. 1973) (noting
“the law is clear that summary judgment is a final
judgment on the merits sufficient to raise the defense
of res judicata in a subsequent action between the
parties”).
Moreover, their argument ignores the fact that the
Superior Court of Pennsylvania looked at the
underlying merits of the claims and determined that
Appellants failed to carry their burden in pursuing
their malpractice action under Pennsylvania law. See
Cruickshank-Wallace, 2017 WL 4231601, at *4
(“Appellants have completely overlooked that they

A-9
must prove the merits of their case within a case.”); see
also Heldring v. Lundy Beldecos & Milby, P.C., 151
A.3d 634, 641—42 (Pa. Super. 2016) (noting a plaintiff
alleging legal malpractice in Pennsylvania must
establish that he would have recovered a judgment in
the underlying action). Thus, the state court’s ruling
was not based on a “technicality”; rather, it looked at
the underlying merits of the claims and determined
that Appellants failed to carry their burden in pursuing
their malpractice action under Pennsylvania law.
Accordingly, we agree with the District Court that the
earlier state court ruling precluded Appellants’ claims
against Continental and Columbia.
C. Issue preclusion bars re-litigating personal
jurisdiction over CNAF.
Finally, the District Court determined that it lacked
personal jurisdiction over CNAF, as that issue had
been previously litigated in the state court proceedings.
Issue preclusion ensures that “‘once an issue is
actually and necessarily determined by a court of
competent jurisdiction, that determination is
conclusive in subsequent suits based on a different
cause of action involving a party to the prior
litigation.’” Burlington N. R. Co. v. Hyundai Merch.
Marine Co., 63 F.3d 1227, 1231 (3d Cir. 1995) (quoting
Montana v. United States, 440 U.S. 147, 153 (1979)). A
court will apply issue preclusion when: “(1) the issue
sought to be precluded [is] the same as that involved in
the prior action; (2) that issue [was] actually litigated;
(3) it [was] determined by a final and valid judgment;
and (4) the determination [was] essential to the prior
judgment.” LI at 1231-32 (internal quotation marks

A-10
omitted). “It is well settled that the principles of res
judicata apply to the issue of [personal] jurisdiction in
the same manner as any other issue.” Kendall v.
Overseas Dev. Corp., 700 F.2d 536, 538 (9th Cir. 1983).
Here, after CNAF submitted preliminary objections
as to personal jurisdiction, the Court of Common Pleas
of Chester County sustained those objections and
dismissed the claims against CNAF. Dkt. #13-8. On
appeal, Appellants do not dispute that the District
Court properly applied factors 2,3, and 4 noted above.
Rather, they contest factor 1, arguing that there is a
factual difference between the state court suit and the
current suit. Appellants’ Br. 18-19. Citing to
paragraph 9 in their amended complaint, they argue
that Continental controls CNAF, whereas in the state
court suit, they alleged CNAF controlled Continental.
However, paragraph 9 clearly states that CNAF’s
financial statement “incorporates all operations of
wholly owned subsidiary[y] Continental[.]”5 Amended
Compl. T[9. Indeed, comparing the pleadings in both
actions reveals that Appellants did not allege new
jurisdictional facts in the District Court sufficient to
warrant re-litigating the jurisdictional issue. See
Kendall, 700 F.2d at 539 (“Comparing the pleadings in
both the state and federal courts indicates that [the
plaintiff] did not make any new allegations in the
federal court that would support a result different from
that in the state court.”). Accordingly, we find no error
in the District Court’s determination on this issue.

5 The first page of the amended complaint also clearly states that
Continental is a “wholly owned subsidiary]” of CNAF. Amended
Compl. at 1.

A-ll
III.
For the foregoing reasons, we will affirm the
District Court’s judgment. After considering
Appellants’ opposition, we also grant Appellees’ motion
to file a supplemental appendix.

A-12

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-3635
[Filed April 22, 2019]
BONNIE CRUICKSHANK-WALLACE;
WILLIAM WALLACE
Appellants
v.

CNA FINANCIAL CORPORATION;
CONTINENTAL CORPORATION;
CONTINENTAL CASUALTY CO;
COLUMBIA CASUALTY CO

)
)
)
)
)
)
)
)
)
)

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-18-cv-02769)
District Judge: Honorable Gerald J. Pappert
Submitted Pursuant to Third Circuit LAR 34.1(a)
April 22, 2019
Before: CHAGARES, BIBAS, and GREENBERG,
Circuit Judges

A-13

JUDGMENT
This cause came to be considered on the record from
the United States District Court for the Eastern
District of Pennsylvania and was submitted pursuant
to Third Circuit LAP 34.1(a) on April 22, 2019. On
consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the
judgment of the District Court entered November 14,
2018, be and the same is hereby affirmed. Costs taxed
against the Appellants. All of the above in accordance
with the opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: April 22, 2019
[SEAL]
Certified as a true-copy and issued in lieu
of a formal mandate on 06/20/19
Teste: /s/Patricia A. Dodszuweit
Clerk, U.S. Court of Appeals for the Third Circuit

A-14

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
CIVIL ACTION NO. 18-2769
[Filed November 13, 2018]
BONNIE CRUICKSHANK-WALLACE
and WILLIAM WALLACE,

Plaintiffs,
v.
CNA FINANCIAL CORPORATION, et. al.,

)
)
)

Defendants.
PAPPERT, J.

)
)
)
)
)
)
)

November 13, 2018
MEMORANDUM

This case is the latest in a string of unsuccessful
malpractice lawsuits brought by the Plaintiffs against
their former lawyers and some of those lawyers’
insurers. Bonnie Cruickshank-Wallace and William
Wallace claim that CNA Financial Corporation
(“CNAF”), the Continental Corporation (“TCC”),
Continental Casualty Company (“Continental”) and
Columbia Casualty Company insured one of their

A-15
former lawyers and caused him to breach his fiduciary
and contractual duties to them. Defendants move to
dismiss the claims and the Court grants their Motions
for the reasons that follow.
I
Plaintiffs’ claims arise from decades-old state court
judgments against them. In 1998 and 2000,
respectively, they were each sued by a bank in
Maryland state court for defaulting on loans and
receiving fraudulent conveyances. See generally
Wallace v. Mercantile Cty. Bank, 2006 WL 3302490,
(E.D. Pa. Nov. 9, 2006) (fully outlining the procedural
history of the Maryland state court proceedings);
Wallace v. Mercantile Cty. Bank, 514 F. Supp. 2d 776
(D. Md. 2007), aff’d, 307 F. App’x 720 (4th Cir. 2009)
(same). In 2006, after the close of those proceedings,
Mrs. Wallace retained Philadelphia law firm Klehr
Harrison Harvey Branzburg LLP to sue the bank for
abuse of process, denial of due process and defamation
of creditworthiness, among other claims. See Wallace,
2006 WL 3302490, at *1. The bank removed the case to
federal court, transferred it to the District of Maryland
and moved for dismissal or summary judgment on all
claims. Id. The Maryland district court granted the
bank’s motion and dismissed the case. Wallace, 514 F.
Supp. at 780.
Mrs. Wallace promptly retained Gerald P. Egan and
the Egan Young law firm to sue the Klehr firm for legal
malpractice. See Cruickshank-Wallace u. CNA Fin.
Corp., 2017 WL 4231601, at *1 (Pa. Super. Ct. Sept. 25,
2017). The Chester County Court of Common Pleas
granted summary judgment for Klehr. Id. Mrs. Wallace

A-16
thereupon hired another lawyer, James Tupitza, to
appeal the judgment, but Tupitza failed to timely file a
court-ordered statement of errors. Id.; (Am. Compl.,
ECF No. 7, at
1, 5). Plaintiffs, now acting pro se,
sued Egan for malpractice in Chester County.
Cruickshank-Wallace, 2017 WL 4231601, at *1. The
court granted summary judgment for Egan.
Cruickshank-Wallace, 2017 WL 4231601, at *1.
While the Egan lawsuit was ongoing, Plaintiffs also
sued Tupitza for malpractice. Plaintiffs named CNAF,
Continental and Columbia, who allegedly insured both
Tupitza and Klehr, as defendants. Id.; (Am. Compl.,
ECF No. 7, at ^ 7). Plaintiffs accused CNAF,
Continental and Columbia of concerted tortious
conduct, tortious interference with Tupitza’s contract
with Plaintiffs, and agency liability for Tupitza’s
alleged breach of fiduciary duties. Second Am. Compl.,
Cruickshank-Wallace v. CNA Fin. Corp., CV No. 1310242 (Chester Cty. Ct. Com. PI. Sept. 8, 2014). After
several years of proceedings, the court granted
summary judgment to Tupitza, Continental and
Columbia and dismissed claims against CNAF for lack
of personal jurisdiction. See Cruickshank-Wallace, 2017
WL 4231601, at *1—2; Order, Cruickshank-Wallace, CV
No. 13-10242 (Chester Cty. Ct. Com. PI. Jan. 5, 2015)
(“Order Dismissing CNAF”). The Superior Court of
Pennsylvania affirmed, Cruickshank-Wallace, 2017 WL
4231601, at *5, and the Supreme Court of
Pennsylvania denied Plaintiffs’ petition for allowance
of appeal. Cruickshank-Wallace v. CNAFin. Corp., 187
A.3d 907 (Pa. 2018).

A-17
In its order dismissing with prejudice all claims
against CNAF for lack of personal jurisdiction, the
Pennsylvania trial court found that “Plaintiffs base
their jurisdictional argument on the theory that
[CNAF, Continental and Columbia] are a ‘corporate
combine’ . . . [but] the record demonstrates that
[CNAF] does not control the other two insurance
company defendants.” (Order Dismissing CNAF at 1.)
In its order granting summary judgment for
Tupitza, Continental and Columbia, the trial court held
that Plaintiffs’ case was “defective as a matter of law”
because Plaintiffs certified that expert testimony was
not required to prove their claims and did not produce
an expert witness to show that Tupitza committed legal
malpractice. Order, Cruickshank-Wallace, CV No. 1310242, at 14 (Chester Cty. Ct. Com. PI. July 11, 2016)
(“Order Granting Summ. J.”). Their certification was
binding under Pennsylvania law, and the court could
not find that malpractice occurred without the
assistance of expert testimony. Id. at 13. With respect
to Continental and Columbia, the court held the claims
against them “clearly derivative in nature to those
asserted against Tupitza” and held that Plaintiffs
“could only succeed against insuring Defendants if the
Claims against Tupitza were successful.” Id. at 12, 15.
Plaintiffs filed this Complaint on July 2,2018, again
suing CNAF, Continental and Columbia, two weeks
after Supreme Court of Pennsylvania denied Plaintiffs’
petition for allowance to appeal the state court
judgment. (Compl., ECF. No. 1.); Cruickshank-Wallace,
187 A.3d at 907—08. Plaintiffs allege claims virtually
identical to those dismissed by the state court:

A-18
concerted tortious conduct, tortious interference with
Tupitza’s contract with Plaintiffs, liability in agency for
Tupitza’s conduct and for causing Tupitza to violate
fiduciary duties. Plaintiffs have added TCC, another
alleged subsidiary of CNAF, as a defendant and are no
longer suing Tupitza for the alleged malpractice
underlying all claims.
TCC moves to dismiss for lack of personal
jurisdiction and supports its motion with an affidavit
from David B. Lehman, Assistant Secretary of CNAF.
The affidavit states that TCC is a holding company for
CNAF, not an insurance company, has no control over
the insurance operations of its subsidiaries and has no
offices or employees in Pennsylvania. CNAF argues
that the court cannot exercise personal jurisdiction
over it and the doctrine of issue preclusion prevents the
court from relitigating that issue. Continental and
Columbia argue that the doctrine of claim preclusion
prevents Plaintiffs from bringing claims against them
that have already been litigated and decided in their
favor by the state court.
II
In reviewing a motion to dismiss for lack of personal
jurisdiction under Federal Rule of Civil Procedure
12(b)(2), the Court “must accept all of the plaintiffs
allegations as true and construe disputed facts in favor
of the plaintiff.” Pinker v. Roche Holdings Ltd., 292
F.3d 361, 368 (3d Cir. 2002) (citation omitted). A
motion filed pursuant to Rule 12(b)(2) “is inherently a
matter which requires resolution of factual issues
outside the pleadings,” that is, “whether in personam
jurisdiction actually lies.” Time Share Vacation Club u.

A-19
Atl. Resorts, Ltd., 735 F.2d 61, 66 n.9 (3d Cir. 1984).
Once the defense has been raised, “the plaintiff must
satisfy its burden of proof in establishing jurisdictional
facts through sworn affidavits or other competent
evidence” and may not “rely on the bare pleadings
alone.” Id. (citing Int’l Ass’n of Machinists & Aerospace
Workers v. Nw. Airlines, Inc., 673 F.2d 700 (3d Cir.
1982)). The plaintiff must offer evidence that
establishes with reasonable particularity the existence
of sufficient contacts between the defendant and the
forum state to support jurisdiction. See Carteret Sav.
Bank v. Shushan, 954 F.2d 141, 146 (3d Cir. 1992); see
also Provident Nat’l Bank v. Cal. Fed. Sav. & Loan
Ass’n, 819 F.2d 434, 437 (3d Cir. 1987).
Under Federal Rule of Civil Procedure 4(k), a
district court typically exercises personal jurisdiction
according to the law of the state where it sits. See
O’Connor v. Sandy Lane Hotel Co., Ltd., 496 F.3d 312,
316 (3d Cir. 2007). Pennsylvania’s long-arm statute
permits courts to exercise personal jurisdiction “to the
fullest extent allowed under the Constitution of the
United States and . . . based on the most minimum
contact with this Commonwealth allowed under the
Constitution of the United States.” 42 PA. C.S.A.
§ 5322(b). To exercise personal jurisdiction, the Court
must therefore determine whether, under the Due
Process Clause, the defendant has “certain minimum
contacts with . . . [Pennsylvania] such that the
maintenance of the suit does not offend traditional
notions of fair play and substantial justice.” O’Connor,
496 F.3d at 316-17 (citingInt’l Shoe Co. v. Washington,
326 U.S. 310, 316 (1945)).

A-20
There are two types of personal jurisdiction: general
and specific. General jurisdiction exists where the
defendant’s contacts with the forum state are
“continuous and systematic,” whether or not those
contacts are related to the plaintiffs cause of action.
See Remick u. Manfredy, 238 F.3d 248, 255 (3d Cir.
2001). Specific jurisdiction exists when the “non­
resident defendant has ‘purposefully directed’ his
activities at a resident of the forum and the injury
arises from or is related to those activities.” Gen. Elec.
Co. v. Deutz, 270 F.3d 144, 150 (3d Cir. 2001) (citing
Burger King Corp. v. Rudzewicz, 471 U.S. 462, 472
(1985)). The specific jurisdiction inquiry has three
parts. See O’Connor, 496 F.3d at 317. First, the
plaintiff must show that the defendant “purposefully
directed [its] activities at the forum.” Burger King, 471
U.S. at 472; see also Marten u. Godwin, 499 F.3d 290,
296 (3d Cir. 2007). Second, the litigation must “arise
out of or relate to” at least one of those activities.
Helicopteros Nacionales de Colombia, S.A. v. Hall, 466
U.S. 408, 414 (1984); see also Grimes v. Vitalink
Commons Corp., 17 F.3d 1553, 1559 (3d Cir. 1994).
Third, if the prior two requirements are met, the Court
may consider whether the exercise of jurisdiction
otherwise “comport[s] with ‘fair play and substantial
justice.’” Burger King, 471 U.S. at 476 (quoting Int’l
Shoe, 326 U.S. at 320).
Once TCC raised the defense of lack of personal
jurisdiction, Plaintiffs bore the burden to show
sufficient contacts between TCC and Pennsylvania to
support the Court’s exercise of jurisdiction. Plaintiffs’
Response to TCC’s 12(b)(2) Motion attempts to make
several abstract and conclusory arguments: a

A-21
Pennsylvania statute asserts jurisdiction over foreign
insurance holding companies, CNAF’s subsidiaries are
liable if CNAF is liable and courts applying
Pennsylvania law have exercised personal jurisdiction
over CNAF’s subsidiaries in the past under the
“corporate combine” theory. Plaintiffs do not, however,
offer any jurisdictional facts to overcome TCC’s defense
or rebut TCC’s representation to the Court that it a
holding company with no presence or operations in
Pennsylvania. See (TCC Mot. Dismiss, ECF No. 12, at
2-4). The Court thus has no basis to conclude that TCC
has contacts with Pennsylvania such that the
maintenance of claims against it will not offend
traditional notions of fair play and substantial justice.
II
Under the Full Faith and Credit Act, federal courts
must “give the same preclusive effect to state court
judgments that those judgments would be given in the
courts of the State from which the judgments emerged.”
Baker v. General Motors Corp., 522 U.S. 222, 246
(1998) (quoting Kremer v. Chemical Constr. Corp., 456
U.S. 461, 466 (1982)). Defendants bear the burden to
show that a prior judgment has preclusive effect with
respect to claims or issues raised in Plaintiffs’
Complaint. Borough of Lansdale v. PP & L, Inc., 426 F.
Supp. 2d 264, 306 (E.D. Pa. 2006), reconsidered on
other grounds, 503 F. Supp. 2d 730 (E.D. Pa. 2007).
A
Pennsylvania law regarding claim preclusion
provides that “[a]ny final, valid judgment on the merits
by a court of competent jurisdiction precludes any

A-22
future suit between the parties or their privies on the
same cause of action.” Balent u. City of Wilkes-Barre,
669 A.2d 309, 313 (Pa. 1995) (citing Allen v. McCurry,
449 U.S. 90, 94, (1980)). The doctrine applies only if
there is a “coalescence of four factors: (1) identity of the
thing sued upon or for; (2) identity of the causes of
action; (3) identity of the persons or parties to the
action; and (4) identity of the quality or capacity of the
parties suing or being sued.” Robinson v. Fye, 192 A.3d
1225,1231 (Pa. Commw. Ct. 2018). The prior judgment
must have arisen from proceedings “which satisfy the
procedural requirements of the due process clause so
that the party had a fair opportunity to litigate.”
Borough of Lansdale, 426 F. Supp. 2d at 308 (citing
Kremer, 456 U.S. at 480-82).
Claim preclusion applies “not only to claims actually
litigated, but also to claims which could have been
litigated during the first proceeding if they were part of
the same cause of action.” Balent, 669 A.2d at 313
(citing Allen, 449 U.S. at 94)). The parties are bound
“as to every matter which was offered and received to
sustain or defeat the claim on demand” as well as “to
any other admissible matter which might have been
offered for that purpose.” Hubicki v. ACFIndus., Inc.,
484 F.2d 519, 524 (3d Cir. 1973) (quoting Cromwell v.
Sac Cty., 94 U.S. 351, 352 (1876)).
Continental and Columbia correctly argue that
under the doctrine of claim preclusion, the Chester
County court judgment against Plaintiffs bars them
from raising nearly identical claims in federal court.
Continental and Columbia have demonstrated that all
four required factors to invoke claim preclusion are met

A-23
in this case. First, the claims dismissed by the state
court and the present claims all seek damages from
Defendants arising from Tupitza’s alleged legal
malpractice. Second, while the number and phrasing of
claims have slightly changed, Plaintiffs’ state court
complaint and the Amended Complaint in this case
allege the same causes of action. See Merkel v.
W.C.A.B., 918 A.2d 190, 193 (Pa. Commw. Ct. 2007)
(“Generally, causes of action are identical when the
subject matter and the ultimate issues are the same in
both the old and new proceedings.”). Finally, the
identities of the parties to the action have not changed,
nor have their capacities to sue or be sued.
Plaintiffs argue that the state trial court’s grounds
for dismissing the claims—that Plaintiffs were unable
to prove legal malpractice from which the claims
against the insurers derive—do not apply to this case
because Plaintiffs are no longer directly alleging legal
malpractice. On this theory, they appear to contend
that they are not precluded from relitigating tort
claims against the insurers because the state court did
not squarely address those claims. Plaintiffs ignore the
fact that their tort claims still derive from Tupitza’s
alleged malpractice, despite the fact that Tupitza is no
longer a named party. Plaintiffs remain bound by the
state court’s judgment on the malpractice claim and its
dismissal of all derivative claims. See Balent, 542 Pa.
at 566 (“Under res judicata, [plaintiffs] are barred from
litigating claims that were or could have been raised in
the prior action which resulted in a final judgment on
the merits, so long as the claims derive from the same
cause of action.”); Robinson, 192 A.3d at 1231 (“[W]here
the same evidence is required to support a final

A-24
determination in a former action and in a subsequent
action, res judicata bars the second action”).
The state court’s grant of summary judgment for
Continental and Columbia, affirmed on appeal, was a
final, valid judgment on the merits. See Schuldiner v.
Kmart Corp., 450 F. Supp. 2d 605, 609 (E.D. Pa. 2006),
affd, 284 F. App’x 918 (3d Cir. 2008) (“The preclusive
effect of summary judgments is consistent with the
Commonwealth’s general understanding of the purpose
of res judicata.”). Plaintiffs had a fair opportunity to
litigate; they are not entitled to a second chance in a
new forum.
B
Under Pennsylvania law, the doctrine of issue
preclusion bars a party from relitigating an issue if
(1) the issue decided in the prior case is identical to the
one presented in the later action; (2) there was a final
judgment on the merits; (3) the party against whom the
plea is asserted was a party or in privity with a party
in the prior case; (4) the party or person privy to the
party against whom the doctrine is asserted had a full
and fair opportunity to litigate the issues in the prior
proceeding and (5) the determination in the prior
proceeding was essential to the judgment. Office of
Disciplinary Counsel v. Kiesewetter, 889 A.2d 47, 50-51
(Pa. 2005). The doctrine is intended to relieve parties
of the cost and vexation of multiple lawsuits, facilitate
judicial consistency, conserve judicial resources and
encourage reliance on adjudication. See id. at 51; see
also Schaffer, 673 A.2d at 875.

A-25
The Court lacks personal jurisdiction over CNAF
and the doctrine of issue preclusion bars Plaintiffs from
relitigating this issue. The jurisdictional issue here is
the same as that addressed by the state court, there
was a final judgment on the merits and the litigating
parties have not changed. Plaintiffs had a full and fair
opportunity to litigate and the state court considered
both parties’ briefing before issuing its order dismissing
all claims against CNAF with prejudice. Finally, the
state court’s decision was essential to the dismissal of
all claims against CNAF. Plaintiffs may not relitigate
an issue that has already been fairly and finally
decided. See Saudi v. Acomarit Maritimes Servs., S.A.,
114 F. App’x 449, 454 (3d Cir. 2004) (finding that issue
preclusion may bar relitigation of the issue of personal
jurisdiction); Hickey u. Tenn. Gas Pipeline Co., 1992
WL 158074, at *2 (E.D. Pa. July 1, 1992) (applying the
doctrine of issue preclusion to prevent defendant from
relitigating the issue of personal jurisdiction).
An appropriate order follows.
BY THE COURT:
/s/ Gerald J. Pawert
GERALD J. PAPPERT, J.

A-26

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
CIVIL ACTION NO. 18-2769
[Filed November 13, 2018]
BONNIE CRUICKSHANK-WALLACE
and WILLIAM WALLACE,

Plaintiffs,
v.
CNA FINANCIAL CORPORATION, et. al,
Defendants.

)
)
)
)
)
)
)

)
)
)

ORDER
AND NOW, this 13th day of November, 2018, upon
consideration of Defendant Continental Corporation’s
Motion to Dismiss (ECF No. 12), Defendants CNA
Financial Corporation, Columbia Casualty Company,
Continental Casualty Company and Continental
Corporation’s Motion to Dismiss (ECF No. 13),
Plaintiffs’ Responses (ECF Nos. 16—17), Defendants’
Replies (ECF Nos. 19-20) and Plaintiffs’ Sur-Replies

A-27
(ECF Nos. 21-22), it is hereby ORDERED that the
Motions are GRANTED and the case DISMISSED.
BY THE COURT:
/s/ Gerald J. Pappert
GERALD J. PAPPERT, J.

A-28

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-3635
[Filed June 12, 2019]
BONNIE CRUICKSHANK-WALLACE;
WILLIAM WALLACE,
Appellants
v.
CNA FINANCIAL CORPORATION;
CONTINENTAL CORPORATION;
CONTINENTAL CASUALTY CO;
COLUMBIA CASUALTY CO

)
)
)
)
)
)

)
)
)
)

(D.C. No. 2-18-cv-02769)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, SHWARTZ,
KRAUSE, RESTREPO, BIBAS, PORTER, MATEY, and
GREENBERG*, Circuit Judges

* Judge Greenberg’s vote is limited to panel rehearing only

A-29
The petition for rehearing filed by Appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc is
DENIED.
ATTEST:
s/ Stephanos Bibas
Circuit Judge
Dated: June 12, 2019
Lmr/cc: Bonnie Cruickshank-Wallace
William Wallace
Theresa M. Mullaney

A-30

APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
Civil Action No. 18-2769
[Filed August 2, 2018]
BONNIE CRUICKSHANK-WALLACE
and
WILLIAM WALLACE
10 Crestview Dr.
Parkesburg, PA 19365
pro se Plaintiffs
v
CNA FINANCIAL CORPORATION
and
CONTINENTAL CORPORATION
and
CONTINENTAL CASUALTY CO
and
COLUMBIA CASUALTY CO
333 South Wabash Ave
Chicago, Illinois 60604
Defendants

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

A-31
BONNIE CRUICKSHANK-WALLACE
WILLIAM WALLACE
10 Crestview Dr.
Parkesburg, PA 19365
Plaintiffs pro se
610-857-4934
will21921@yahoo.com
JURY TRIAL DEMANDED
Rule 15(a)(1)(B) AMENDED COMPLAINT
Plaintiffs pro se BONNIE CRUICKSHANKWALLACE (Mrs. Wallace) and husband WILLIAM
WALLACE (Mr. Wallace) (together “Wallaces”) reside
in Chester County, Pennsylvania and hereby bring
their Rule 15(a)(1)(B) AMENDED COMPLAINT (to
their July 2,2018 Complaint) against Defendants CNA
FINANCIAL CORP. (“CNAF”) and its wholly owned
subsidiaries CONTINENTAL CORPORATION
(“Continental”), CONTINENTAL CASUALTY CO.
(“Continental Casualty”) and COLUMBIA CASUALTY
CO. (“Columbia Casualty”) (collectively “CNA”),
Delaware corporations domiciled in the same CNA
office at the same address in the CNA Tower, Chicago,
Illinois.
JURISDICTION
The U.S. District Court for the Eastern District of
Pennsylvania has jurisdiction in diversity.

FACTUAL SUPPORT FOR CLAIMS
1.
February 4, 2013 Mr. and Mrs. Wallace retained
West Chester, Pennsylvania lawyer James S. Tupitza
(“Tupitza”) to represent plaintiff Wallace in their post

A-32
bench trial litigation against Wallace former
Philadelphia lawyer Klehr, Harrison, Harvey,
Branzburg & Ellers, LLP (“Klehr”), C.C.P. Philadelphia
County, No. 3546 (“Wallace v Klehr"). Klehr was
defended and insured by CNA for $20 million against
the Wallace intentional tort claims. Tupitza and his
associate Julie D. Lathia, Esq. (“Lathia”) promptly
entered in February 2013 and filed plaintiff Wallace
post bench trial motions
2.
A Wallace v Klehr December 2011 partial
summary judgment and December 2012 bench trial
judgment dismissed the claims against Klehr. After
post trial motions were denied, Tupitza timely noticed
Wallace appeal and the court ordered a Pa.R.C.P.
1925(b) Concise Statement of issues appealed by
July 1, 2013. After failing to timely file the 1925(b)
Statement, Tupitza immediately filed the Statement
nunc pro tunc which was denied.
3.
Tupitza noticed a second Wallace appeal and
September 3, 2013 the court ordered a second
Appellant Wallace Rule 1925(b) Statement of issues
appealed.
4.
Tupitza associate Lathia emailed a draft second
1925(b) Statement to Mr. Wallace and in her email
promised she would timely file it.
5.
September 20, 2013 Lathia called and emailed
Mr. Wallace stating that Mr. Tupitza stopped her from
filing the Wallace second 1925(b) Statement and the
Wallace appeal was dismissed.
6.
Tupitza and Lathia never withdrew as Wallace
attorneys in Wallace u Klehr.

A-33
7.
In November 2013 the Wallaces filed their pro se
complaint against Chester County lawyer Tupitza and
CNAF, Court of Common Pleas Chester County, No.
2013-10242, (“Wallace v. Tupitza”)', amended in 2014
to add CNAF subsidiaries Continental Casualty and
Columbia Casualty as defendants with CNAF.
8.
January 5, 2015 the Wallace v Tupitza court
sustained CNAF preliminary objections that
Pennsylvania does not have jurisdiction over CNAF by
deciding one fact that CNAF “does not control the other
two insurance company defendants”, made final by
July 11, 2016 summary judgment order dismissing the
lawsuit.
9.
Wallace v Tupitza discovery disclosed that
CNAF, Continental Casualty and Columbia Casualty
are composed of the same Continental employees,
corporate officers and directors in the same Chicago
office all using the same name and business logo “CNA”
registered to CNAF; and the CNAF financial statement
with the SEC, with net worth over $12 Billion,
incorporates all operations of wholly owned
subsidiaries Continental, Continental Casualty and
Columbia Casualty.
10.
Wallace v Tupitza discovery produced a May 19,
2013 “CNA” policy contract with Tupitza requiring
Tupitza to cooperate with CNA instructions.
11.
Wallace v Tupitza discovery produced Tupitza’s
August 1, 2013 email claim notice to “CNA” stating
that Tupitza was liable to the Wallaces and that he had
a conflict of interest.

A-34
12.
Wallace u Tupitza discovery produced a
September 6, 2013 letter from CNA in Chicago on
“CNA” stationary to Tupitza that begins, “Following
our telephone discussion on September 3, 2013...” — the
same day of the docketed, emailed court ordered second
1925(b) Statement — and the CNA letter assured
Tupitza that CNA will defend and insure Tupitza
against all Wallace claims.
13.
When CNA and Tupitza talked September 3,
2013 and CNA sent its September 6th letter, CNA
knew that Tuptiza was conflicted and that the Wallaces
were relying on Tupitza to timely file the court ordered
second Wallace 1925(b) Statement.
14.
CNA did defend and insure Tupita in Wallace u
Tuptiza.
15.
The Wallace v Tupitza court by summary
Judgment order July 11, 2016 dismissed the lawsuit by
expressly treating Tupitza claims as for negligent
malpractice and therefore the court did not accept the
Wallaces’ original Pa. R.C.P. 1042.3 Certificate of Merit
applicable to negligent malpractice.
16.
The July 11, 2016 Wallace v Tupitza summary
judgment dismissal of the lawsuit stated it did not
address the facts or merits of any of the claims against
all defendants.
17.
All Wallace v Tupitza claims against all
defendants, including the issues of jurisdiction over
CNAF and the 1042.3 Certificate of Merit, were
appealed, which ended June 19, 2018 with the Pa.S.Ct.
denial of the Wallaces’ petition for appeal.

A-35
Exh. A is the Wallaces’ (cautionary) Pa.R.C.P.
18.
1042.3 Certificate Of Merit that “an appropriate
licensed professional has supplied a written statement
to the undersigned that there is a basis to conclude”
that Tupitza failed to provide legal services of
“acceptable professional standards” that “caused harm”
to the Wallaces.
CLAIMS
COUNT 1 - Rest.2d Torts § 87 Concerted
Intentional Tortious Conduct
19. Plaintiffs incorporate all foregoing paragraphs as
if fully set forth in this claim.
20.
This COMPLAINT alleges Tupitza intentional
tortious conduct with malice and the claims against the
CNA Defendants are for intentional torts with malice.
21.
Because of the material differences in financial
risk, it is a conflict of interest for CNA to insure the
liability of a party and opposing lawyer in litigation
(e.g. Wallace lawyer Tupitza versus Klehr), opposing
parties in litigation, or insure the liability of opposing
lawyers in litigation, which creates the potential for
conflicted conduct.
22.
The CNA Defendants intentionally, if by willful
blindness, gave assistance or encouragement or by
mutual tact understanding concerted with Tupitza,
who they knew was conflicted, to maliciously breach his
i) fiduciary duty, ii) manifest contractual duty as well
as iii) Wallace instruction, and iv) promise to the
Wallaces, detrimentally relied upon by the Wallaces, to
file the court ordered second Wallace Rule 1925(b)
Statement.

A-36
23.

CNA Defendants concert with Tupitza was
purposeful with malice to harm the Wallaces for the
financial benefit of CNA by wrongfully causing
dismissal of the Wallace appeal of their claims against
Klehr insured by CNA for $20 million. Qui sentit
commodum senture debet onus - he who receives the
benefit ought also to suffer the burden.
24.
WHEREFORE, the Wallaces demand judgment
in their favor and against the CNA Defendants,
individually and collectively, for Rest.2d Torts § 876
concerted intentional tortious conduct with malice and
for damages:
i)

actual reliance damages of Wallace legal fees
regarding Wallace v Klehr litigation totaling
$720,419.07 plus prejudgment compound
interest;1 and

ii)

CSA and Tupitza caused emotional distress
to the Wallaces in excess of $150,000.00 plus
prejudgment compound interest from
September 2013; and

iii)

punitive damages, for malicious intent to
harm the Wallaces, as deterrence to CNA
and other insurers and their insured lawyers
from similar outrageous, willful and wonton
conduct that strikes at the core of the

1 The Wallaces’ legal fees: 1) $240,500.00 vs. Klehr plus compound
interest from September 2013; 2) $158,540.04 fees to Klehr vs.
PNC/Mercantile plus compound interest from 2007; and 3) Klehr
claimed Wallace defense of $328,136.13 fees against
PNC/Mercantile plus compound interest from 2004 (all these legal
fees were evidenced without dispute in Wallace v Klehr)

A-37
integrity of insurers and their insured
lawyers as well as strikes at the core of
public policy;2 and
ix) other relief this Court deems appropriate.
COUNT II - Rest.2dTorts § 766 Intentional
Interference with Contract Duty
25.
Plaintiffs incorporate all foregoing paragraphs as
if fully set forth in this claim.
26.
The CNA Defendants intentionally, if by willful
blindness, gave assistance or encouragement or by
mutual tact understanding, interfered with Tupitza’s,
who they knew was conflicted, i) fiduciary duty,
ii) manifest contractual duty as well as iii) Wallace
instruction, and iv) promise to the Wallaces,
detrimentally relied upon by the Wallaces, to file the
court ordered second Wallace Rule 1925(b) Statement.
27.
CNA Defendants interference with Tupitza’s
contractual duty was purposeful with malice to harm
the Wallaces for the financial benefit of CNA by
wrongfully causing dismissal of the Wallace appeal of
their claims against Klehr insured by CNA for $20
million. Qui sentit commodum sentire debet onus - he
who receives the benefit ought also to suffer the
burden.

2 Punitive damages for malicious conduct shall be based upon
CNA’s “wealth” in order to be an effective deterrence to CNA and
other insurers and their insured lawyers from engaging in similar
intentional malicious conduct. The net worth of CNA is in excess
of $12 Billion (courts, including the USSC, have generally found
10% of wealth a just and fair punitive deterrence).

A-38
28.
WHEREFORE, the Wallaces demand judgment
in their favor and against the CNA Defendants,
individually and collectively, for Rest.2d Torts § 766
interference with malice with contractual duty and for
damages as claimed above 24.
COUNT III - Rest.2dTorts § 312 Intentionally
Causing Agent to Violate Duty
29.
Plaintiffs incorporate all foregoing paragraphs as
if fully set forth in this claim.
30.
Rest.2d Torts § 312 comment d. Tort or
restitutional recovery.
A person who intentionally causes a[n] ... agent
to violate a duty to the principal is subject to
liability in tort for the harm he has caused the
principal...
31.
The CNA Defendants intentionally, if by willful
blindness, gave assistance or encouragement or by
mutual tacit understanding caused Tupitza, who they
knew was conflicted, to violate his agent i) fiduciary
duty, ii) manifest contractual duty as well as
iii) Wallace instruction, and iv) promise to the
Wallaces, detrimentally relied upon by the Wallaces, to
file the court ordered second Wallace Rule 1925(b)
Statement
32.
The CNA Defendants purposefully caused
Tupitza to violate his agent duty with malice to harm
the Wallaces for the financial benefit of CNA by
wrongfully causing dismissal of the Wallace appeal of
their claims against Klehr insured by CNA for $20
million. Qui sentit commodum senturre debet onus — he

A-39
who receives the benefit ought also to suffer the
burden.
33.
WHEREFORE, the Wallaces demand judgment
in their favor and against the CNA Defendants,
individually and collectively, for Rest.2dTorts § 312
Intentionally with malice Causing Agent to Violate
Duty and for damages as claimed above 24.
COUNT IV - Liability in Rest.3d Agency § 2.06
34.
Plaintiffs incorporate all foregoing paragraphs as
if fully set forth in this claim
35.
Pursuant to the CNA policy and Tupitza’s claim
with CNA, the CNA Defendants had “right of control”
of Tupitza, who they knew was conflicted, at the very
least as follows:
1) cause Tupitza to withdraw from Wallace v
Klehr; or
2) cause Tupitza to timely file the court ordered
second 1925(b) Statement; or
3) cause Tupitza to not file the court ordered
second 1925(b) Statement.
36.
Rest.3d Agency § 2.06 provides that CNA is
liable for the actions of Tupitza, whether or not acting
with CNA authority or encouragement, and Tupitza’s
intentional torts with malice purposefully harmed the
Wallaces for the financial benefit of CNA by wrongfully
causing dismissal of the Wallace appeal of their claims
against Klehr insured by CNA for $20 million. Qui
sentit commodum sentire debet onus - he who receives
the benefit ought also to suffer the burden.

A-40
37.
WHEREFORE, the Wallaces demand judgment
in their favor and against the CNA Defendants,
individually and collectively, in Rest.3d Agency § 2.06
and for damages and harm as claimed above If 24.
Plaintiffs demand a trial by jury of twelve
persons on all claims.
Respectfully submitted,
/s/ Bonnie Cruickshank-Wallace
BONNIE CRUICKSHANK-WALLACE
/s/ William Wallace
WILLIAM WALLACE
Dated: August 2, 2018
BONNIE CRUICKSHANK-WALLACE
WILLIAM WALLACE
Plaintiffs pro se
10 Crestview Dr.
Parkesburg, PA 19365
610-857-4934
will21921 @yahoo.com
k 'k k

A-41
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
Civil Action No. 18 2769
[Filed August 2, 2018]
BONNIE CRUICKSHANK-WALLACE
and
WILLIAM WALLACE,
Plaintiffs
v
CNA FINANCIAL CORPORATION
Defendant

)
)
)
)
)
)
)
)
)

BONNIE CRUICKSHANK-WALLACE
WILLIAM WALLACE
10 Crestview Dr.
Parkesburg, PA 19365
Plaintiffs pro se
610-857-4934
will21921 @yahoo.com
Pa.R.C.P. 1042.3 CERTIFICATE OF MERIT AS
TO ATTORNEY
JAMES S. TUPITZA, ESQ.
We, Bonnie Cruickshank-Wallace and William
Wallace, Plaintiffs pro se, certify that:

A-42
Elan appropriate licensed professional has supplied a
written statement to the undersigned that there is a
basis to conclude that the care, skill or knowledge
exercised or exhibited by JAMES S. TUPITZA, ESQ.
(“Tupitza”) in the treatment, practice or work that is
the subject of the complaint, fell outside acceptable
professional standards and that such conduct was a
cause in bringing about the harm;
AND/OR
□ the claim that Tupitza deviated from an acceptable
professional standard is based solely on allegations
that other licensed professionals for whom this
defendant is responsible deviated from an acceptable
professional standard and an appropriate licensed
professional has supplied a written statement to the
undersigned that there is a basis to conclude that the
care, skill or knowledge exercised or exhibited by the
other licensed professionals in the treatment, practice
or work that is the subject of the complaint, fell outside
acceptable professional standards and that such
conduct was a cause in bringing about the harm;
OR
□ expert testimony of an appropriate licensed
professional is unnecessary.
Respectfully submitted,
/s/ Bonnie Cruickshank-Wallace
BONNIE CRUICKSHANK-WALLACE
/s/ William Wallace
WILLIAM WALLACE
Dated. August 2, 2018

A-43

APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
Civil Action No. 18-2769
[Dated August 16, 2018]
BONNIE CRUICKSHANK-WALLACE
AND WILLIAM WALLACE, Plaintiffs
v.
CNA FINANCIAL CORPORATION, et al.
Defendants

)
)
)
)
)

)
)

AFFIDAVIT OF DAVID B. LEHMAN
Before me, the undersigned notary, on this day
personally appeared David B. Lehman, the affiant, a
person whose identity is known to me. After I
administered an oath to Affiant, Affiant testified as
follows:
1.
My name is David B. Lehman. I am over
eighteen (18) years of age and am a resident of Illinois.
I am employed by the Continental Casualty Company
(“CCC”) and I am an Assistant Secretary of CNA
Financial Corporation (“CNAF”). Based on my
experience as a CCC employee and on my duties as an
officer of CNAF, I have knowledge of the past and

A-44
present structure of CNAF and its various direct and
indirect subsidiaries, including The Continental
Corporation (“TCC”), Continental Casualty Company
(“Continental”) and Columbia Casualty Company
(“Columbia”). If called upon to testify, I could testify
competently to the following facts.
2.
TCC is a holding company organized under
the laws of the state of New York, and it maintains its
principal place of business in Chicago, Illinois. TCC
was created for the purpose of holding the common
stock of a number of operating subsidiaries for the
benefit of TCC’s sole shareholder, CNAF. TCC owns
100% of the stock of Continental. Continental owns
100% of the stock of Columbia.
3.

TCC has no employees.

4.
TCC does not have any offices in
Pennsylvania, and TCC does not own any real or
personal property in Pennsylvania.
5.

TCC does not advertise in Pennsylvania.

6.
TCC is not, and never has been, a licensed
insurance company in Pennsylvania or any other state.
7.
TCC does not issue, and never has issued,
insurance policies in Pennsylvania, or in any other
state.
8.
TCC played no role in developing,
underwriting, or issuing any insurance policies to any
person or company mentioned in the Amended
Complaint.

A-45
9.
TCC never has collected premiums for any
insurance policies in Pennsylvania or in any other
state.
10.
TCC never has investigated, adjusted,
settled, or paid an insurance claim in Pennsylvania or
in any other state.
11.
TCC was not consulted, and TCC provided no
advice or direction, with respect to the handling or
defense of any claims involving Plaintiffs Bonnie
Cruickshank-Wallace or William Wallace.
12.
TCC never communicated directly or
indirectly with James Tupitza or Julie Lathia with
respect to any matters involving Plaintiffs Bonnie
Cruickshank-Wallace or William Wallace.
13.
TCC does not direct, control, or influence the
insurance operations of any of its direct or indirect
insurance company subsidiaries, including Continental
Casualty Company and Columbia Casualty Company.
I declare under penalty of perjury that the foregoing
is true and correct under the laws of Illinois.
/s/ David B. Lehman
David B. Lehman

SUBSCRIBED AND SWORN TO BEFORE ME on this
16th day of August, 2018, to certify which witness my
hand and seal of office.
/s/Hazel M. Wortham
Notary Public, State of Illinois

A-47

APPENDIX H
IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA
[Filed July 12, 2016]
NO. 2013-11158
CIVIL ACTION
BONNIE CRUICKSHANK-WALLACE
and WILLIAM WALLACE
V.
GERARD P. EGAN, ESQUIRE,
EGAN YOUNG LAW FIRM,
NEIL E. JOKELSON, ESQUIRE and
NEIL E. JOKELSON & ASSOCIATES

)
)
)
)
)
)
)
)
)

Bonnie Cruickshank-Wallace and William Wallace Pro
Se Plaintiffs
Matthew S. Marrone, Esquire and Jessica L. Wuebker,
Esquire, Attorneys for Defendants Gerard P. Egan,
Esquire and Egan Young Law Firm
Arthur W. Lefco, Esquire and Aaron E. Moore, Esquire,
Attorneys for Defendants Neil E. Jokelson, Esquire and
Neil E. Jokelson & Associates

A-48
No. 2013-10242
BONNIE CRUICKSHANK-WALLACE
and WILLIAM WALLACE
V.
JAMES S. TUPITZA,
TUPITZA & ASSOCIATES, P.C.,
COLUMBIA CASUALTY COMPANY and
CONTINENTAL CASULATY COMPANY

)
)
)
)
)
)
)
)
)

Bonnie Cruickshank-Wallace and William Wallace, Pro
Se Plaintiffs
Arthur W. Lefco, Esquire and Aaron E. Moore, Esquire,
Attorneys for Defendants James S. Tupitza and
Tupitza & Associates, P.C.
Edward M. Napierkowski, Esquire and Scott E.
Turner, Esquire, Attorneys for Defendants Columbia
Casualty Company and Continental Casualty Company
ORDER
AND NOW this 12th day of July, 2016, it is hereby
ORDERED and DECREED that pursuant to the
Court’s prior Order, all outstanding Motions in the
above-captioned matters are DENIED as moot. See
Order, 7/11/16 (granting summary judgment in favor of
Defendants on all claims asserted by Plaintiffs).

A-49
BY THE COURT:
/s/ William P. Mahon
William P. Mahon, J.

A-50

APPENDIX I
IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA
[Filed July 11, 2016]
NO. 2013-11158
CIVIL ACTION
BONNIE CRUICKSHANK-WALLACE
and WILLIAM WALLACE
V.
GERARD P. EGAN, ESQUIRE,
EGAN YOUNG LAW FIRM,
NEIL E. JOKELSON, ESQUIRE and
NEIL E. JOKELSON & ASSOCIATES

)
)
)
)
)
)
)
)
)

Bonnie Cruickshank-Wallace and William Wallace Pro
Se Plaintiffs
Matthew S. Marrone, Esquire and Jessica L. Wuebker,
Esquire, Attorneys for Defendants Gerard P. Egan,
Esquire and Egan Young Law Firm
Arthur W. Lefco, Esquire and Aaron E. Moore, Esquire,
Attorneys for Defendants Neil E. Jokelson, Esquire and
Neil E. Jokelson & Associates

A-51
No. 2013-10242
BONNIE CRUICKSHANK-WALLACE
and WILLIAM WALLACE
V.
JAMES S. TUPITZA,
TUPITZA & ASSOCIATES, P.C.,
COLUMBIA CASUALTY COMPANY and
CONTINENTAL CASULATY COMPANY

)
)
)
)
)
)
)
)
)

Bonnie Cruickshank-Wallace and William Wallace, Pro
Se Plaintiffs
Arthur W. Lefco, Esquire and Aaron E. Moore, Esquire,
Attorneys for Defendants James S. Tupitza and
Tupitza & Associates, P.C.
Edward M. Napierkowski, Esquire and Scott E.
Turner, Esquire, Attorneys for Defendants Columbia
Casualty Company and Continental Casualty Company
ORDER
AND NOW this 11th day of July, 2016, upon
consideration of the following: Motion for Partial
Summary Judgment of Defendants, Neil E. Jokelson &
Associates, P.C. and Neil E. Jokelson, Esquire, Seeking
Dismissal of All Claims Asserted by Plaintiff, William
Wallace; Motion for Summary Judgment of Defendants
Gerard P. Egan, Esquire and Egan Young Law Firm;
Motion for Summary Judgment of Defendants, Neil E.
Jokelson & Associates, P.C. and Neil E. Jokelson,
Esquire; Defendants Continental Casualty Co. and

A-52
Columbia Casualty Co. Motion for Summary Judgment
Regarding the Second Amended Complaint; Motion for
Partial Summary Judgment of Defendants, Tupitza &
Associates, P.C., and James S. Tupitza, Esquire,
Seeking Dismissal of All Claims Asserted by Plaintiff,
William Wallace; Motion for Summary Judgment of
Defendants, Tupitza & Associates, P.C. and James S.
Tupitza, Esquire; and Motion for Summary Judgment
of Defendants, Continental Casualty Company and
Columbia Casualty Company; the Briefs in Support
thereof, as well as Plaintiffs’ Answers thereto, together
with the oral argument1 made before this Court
thereon, it is hereby ORDERED and DECREED that
the moving Defendant’s Motions are GRANTED IN
PART and DENIED IN PART. Specifically, Mr.
Wallace has standing in this collective litigation to
assert claims against Tupitza, Continental Casualty
Company and Columbia Casualty Company.
It is further ORDERED that all claims asserted by
both Plaintiffs and against all Defendants fail for
failure to certify that expert testimony is required in
this matter.2 Accordingly, all Plaintiffs’ claims are
dismissed with prejudice.

1 Oral argument was held on March 10, 2016.
2 Having concluded that Plaintiffs’ claims collectively fail for
failure to certify that expert testimony is required, see infra at 1215, we need not address whether issues of material fact exist
concerning the individual elements of the claims. The parities were
advised that the Court would entertain summary judgment
motions only on the limited issues of Mr. Wallace’s standing in this
litigation and the need, if any, for a certificate of merit.

A-53
It is further ORDERED that Plaintiffs’ “Motion for
Rule 2002(d) and 2004 Joinder of Plaintiffs” and “Rule
1033 Motion to Amend Complaint” filed on March 4,
2016 and April 1, 2016, respectively, are both
DENIED.3

3 Although these motions were not addressed during the March 10,
2016 oral argument, they directly relate to the summary judgment
issues now before this Court and are ripe for disposition as they
were timely filed and briefed. Additional argument is not required
for the disposition of these motions.
Mindful of the procedural posture in this litigation, we now
address Plaintiffs’ motions. We find that the Motion for Rule
2002(d) and 2004 Joinder of Plaintiffs and assignment of claims
violates the common law doctrine of champerty.
Long considered repugnant to public policy against profiteering
and speculating in litigation, champerty is defined by Black’s Law
Dictionary (8th ed.) as:
[a]n agreement between an officious intermeddler in a
lawsuit and a litigant by which the intermeddler helps
pursue the litigant’s claim as consideration for receiving
part of any judgment proceeds; ... an agreement to divide
litigation proceeds between the owner of the litigated
claim and a party unrelated to the lawsuit who supports or
helps enforce the claim.
See also Richette v. Pennsylvania R.R., 187 A.2d 910 (Pa. 1963) (a
champertous agreement is “one in which a person having
otherwise no interest in the subject matter of an action undertakes
to carry on the suit at his own expense in consideration of receiving
a share of what is recovered.”); Belfonte v. Miller, 243 A.2d 150,
152 (Pa. Super. 1968) (enbanc) (citing Black’s Law Dictionary and
defining champerty as “a bargain by a stranger with a party to a
suit, by which such third person undertakes to carry on the
litigation at his own cost and risk, in consideration of receiving, if
successful, a part of the proceeds or subject to be recovered.”)
(internal quotation omitted).

A-54

Under Pennsylvania law, if an assignment is champertous, it is
invalid. Frank v. TeWinkle, 45 A.3d 434 (Pa. Super. 2012);
Belfonte, 243 A.2d at 152; see also Westmoreland County v. RTA
Group, Inc., 767A.2d 1144,1149 (Pa. Cmwlth. 2001) (affirming the
trial court’s grant of summary judgment as to count one of the
complaint in favor of the plaintiff because the defendant consulting
group was engaged in champerty and maintenance).
In the present case, the record is devoid of facts evidencing that
Mr. Wallace had any direct interest either in the underlying
Mercantile or Klehr Harrison Litigation. The genesis of the
Mercantile and Klehr Harrison Litigation is explained in more
detail below. See infra, at 5. Therefore, absent the attempted
assignment of rights and claims by Mrs. Cruickshank-Wallace, Mr.
Wallace has no legitimate interest in the suits brought against
Defendants Egan or Jokelson. Furthermore, our review of the
purported assignment evidences that it attempts to give Mr.
Wallace an interest in a percentage of the proceeds of the suit.
Therefore, we find that the assignments of rights and claims by
Mrs. Cruickshank-Wallace to Mr. Wallace and against Egan and
Jokelson are champertous.
We are mindful that in certain instances the law permits the
assignment of legal malpractice claims. Hedlund Mfg. v. Weiser,
Stapler & Spivak, 539 A.2d 357 (Pa. 1988). In Hedlund, Mervin
Martin engaged the services of attorney Karl Spivak to apply for
a patent on a manure spreader that Martin had invented and
manufactured. Hedlund, 539 A.2d at 357. Spivak prepared the
application, but failed to file it within the required amount of time.
Id. at 357-358. Hedlund Manufacturing Company, Inc., purchased
Martin’s business, including the right to use and license the then
pending patent. Id. at 358. The patent, however, was eventually
disallowed. Id. Martin then assigned to Hedlund “all rights and
causes of action, against [Spivak] arising out of the mishandling of
the patent application.” Thereafter, Hedlund filed a complaint
alleging professional negligence and breach of contract against
Spivak and his law firm. Id.
On appeal, the Pennsylvania Supreme Court considered “whether
a cause of action for negligence and breach of contract with respect

A-55

to the performances of legal services can be assigned.” Id at 357.
Within its reasoning, the Supreme Court recognized that in several
jurisdictions, courts have determined that public policy prohibits
the assignment of such claims to protect the attorney-client
relationship. Id at 359. Nevertheless, the Supreme Court
approved the assignment of legal malpractice claims, holding that
“[w]e will not allow the concept of the attorney-client relationship
to be used as a shield by an attorney to protect him or her from the
consequence of legal malpractice.” Id.
Nothing in the Supreme Court’s holding in Hedlund, however,
determined that an assignment of claims against attorneys cannot
be champertous, or that champerty is no longer a viable defense to
such claims. To the contrary, unlike the assignments in this
matter, the assignment in Hedlund was not champertous.
Specifically, in Hedlund the assignee (Hedlund Mfg.) was not a
stranger to the litigation and it held a legitimate interest in the
lawsuit. Indeed, Hedlund purchased Martin’s business, including
the rights to use and license a pending patent. Consideration paid
by Hedlund in this transaction included a value that reflected
Hedlund’s interest in the viable patent for Martin’s manure
spreader. Therefore, Hedlund was directly affected by and had a
significant interest in the outcome of the patent application
proceedings. Attorney Spivak, however, improperly handled those
proceedings. Therefore, although Hedlund did not contract directly
with Attorney Spivak for the patent application services, Hedlund,
whose interest in the viable patent rights for Martin’s maneuver
spreader arose from its acquisition of Martin’s business, held a
legitimate interest in the suit against Spivak and his firm.
In this matter, however, Mr. Wallace had no legitimate interest in
the underlying malpractice act ions. Indeed, Mr. Wallace was and
still remains a “stranger” to those lawsuits. Mr. Wallace’s financial
interest in the underlying matters arose well after the Mercantile
and Klehr Harrison Litigation was complete. Therefore, unlike in
Hedlund, Mr. Wallace is a stranger concerning Egan and Jokelson
seeking to pursue Mrs. Cruickshank-Wallace’s claim as
consideration for receiving part of any judgment proceeds.”
Moreover, nothing in the Supreme Court’s holding in Hedlund

A-56

permits the assignment of a legal malpractice claim when it would
violate the law. Mr. Wallace is not an attorney and, therefore, may
not represent Mrs. Cruickshank-Wallace’s interests or prosecute
her claims. If the Court were to allow the assignment of Mrs.
Cruickshank-Wallace’s claims, it would be assisting in the
commission of a criminal offense, i.e., the unauthorized practice of
law. See 42 Pa.C.S. § 2524 (stating that individual found to have
committed unauthorized practice of law may be subject to pay
party bringing successful action “costs and expenses incurred,
including reasonable attorney fees”). The Court cannot assist
Plaintiffs in the commission of a crime. Accordingly, Plaintiffs’
request for relief is denied.
Plaintiffs’ “Rule 1033 Motion to Amend Complaint” is also denied.
This Motion constitutes an untimely attempt to create a
procedural vehicle whereby Plaintiffs can circumvent the rules of
civil procedure requiring certification of expert testimony in a
complex legal malpractice case. Although Plaintiffs contend that
the Complaints filed in this matter do not include a claim for legal
malpractice, this is not dispositive of the nature of the action filed
or end our analys is. Rather, the content of the pleading makes
clear that Plaintiffs’ action is obviously premised on legal
malpractice. Similarly, this collective litigation has always been
treated as a legal malpractice case by the Court and moving
Defendants.
A central issue in this case is whether the attorney Defendants
exercised ordinary skill and knowledge related to the practice of
law. As discussed in more detail, infra, the Pennsylvania Supreme
Court had held that determining whether a defendant attorney has
breached the standard of care is beyond the scope of a normal
layperson. Rizzo v. Haines, 555 A.2d 58, 66 (Pa. 1989). It is wellestablished that expert testimony is essential when it would help
the fact-finder understand an issue that is beyond a layperson’s
knowledge. Id at 66. Although the claims in this case require the
support of expert testimony, Plaintiffs certified that no expert
testimony is necessary to support their claims. See Pis.’ Certificate
of Merit. This issue is analyzed in more detail below. See infra at
12-15.

A-57
Brief Factual And Procedural History.
We only set out as much of the factual and procedural
history in this case as is necessary for the issuance of
this Order. We note that although this collective
litigation has not been formally consolidated, it consists
of related cases that will be treated as such in this
, Order.
The instant action was commenced by pro se Plaintiffs,
Bonnie Cruickshank-Wallace and William Wallace
(husband and wife) on November 13, 2013. This action
arises out of a convoluted series of legal actions
involving Mrs. Cruickshank-Wallace as a Plaintiff.
Plaintiffs’ claims are premised upon alleged deficient
legal services initially afforded by Gerard P. Egan,
Esquire and the Egan Young Law Firm (collectively,
“Egan”); Neil E. Jokelson, Esquire and Neil E. Jokelson
& Associates (collectively, “Jokelson”). Each Plaintiff

We are mindful that Plaintiffs filed pro se Complaints; however,
this does not relieve them of their obligations to comply with the
Pennsylvania Rules of Civil Procedure. A pro se plaintiff is still
held to the same standards as an attorney filing a Complaint in
this county. As such, a pro se Plaintiff is expected to follow the
rules of procedure or risk dismissal of the claims/action for noncompliance. See First Union Mortg. Corp. v. Frempong, 744 A.2d
327 (Pa. Super. 1999). Granting Plaintiffs’ late request to now add
a legal malpractice claim and to certify that expert testimony is
required for the prosecution of their claims is clearly prejudicial to
Defendants. Essentially, this would allow Plaintiffs’ a second “bite
at the apple” to prosecute what has always been treated as a legal
malpractice action. Plaintiffs’ attempt to create a malpractice
claim by calling it such does not change the fact that the existing
claims have always been legal malpractice claims. Accordingly,
Plaintiffs’ request to again amend their Complaints is denied.

A-58
asserts claims for fraud (Count I), breach of fiduciary
duty (Count II), and breach of contract (Count III)
against Egan and Jokelson, in connection with the legal
services they provided to Mrs. Cruicshank-Wallace in
her malpractice action filed against Klehr Harrison
Harvey Branzburg & Ellers (“Klehr Harrison”). See
Bonnie Cruickshank-Wallace v. Klehr Harrison
Branzberg & Ellers, Philadelphia Court of Common
Pleas, August Term, 2009, 03546 (“Klehr Harrison
Litigation”).
The genesis of the Klehr Harrison Litigation pertains
to the allegedly deficient legal representation afforded
by Klehr Harrison to Mrs. Cruickshank-Wallace in an
underlying action against Mercantile County Bank and
its attorneys, Gebhardt & Smith, LLP, (the “Mercantile
Litigation’). The Mercantile Litigation was dismissed
for failure to state a claim. See Pis.’ Second Am. Compl.

at in 2-3.4
After the Mercantile Litigation concluded adversely to
Mrs. Cruickshank-Wallace, she filed suit against Klehr
Harrison, asserting that Klehr Harrison was liable to
her in connection with the legal services they afforded
her in the Mercantile Litigation. Egan represented
Mrs. Cruickshank-Wallace in the Klehr Harrison
Litigation.5 Id. at 1ffl 4-6.

4 Filed on September 11, 2014.
5 Egan commenced representation of only Mrs. CruickshankWallace on August 28, 2009, by filing a Complaint on Mrs.
Cruickshank-Wallace’s behalf.

A-59
On December 20,2011, Klehr Harrison prevailed on its
Motion for partial summary judgment concerning the
legal malpractice claim asserted against it by Mrs.
Cruickshank-Wallace. Subsequent to the entry of
partial summary judgment on behalf of Klehr
Harrison, Egan was terminated from the
representation of Mrs. Cruickshank-Wallace, via a May
16, 2012 letter from William Wallace.6
After Egan was terminated form representation of Mrs.
Cruickshank-Wallace, the Klehr Harrison Litigation
proceeded to a bench trial before the Honorable
Patricia Mclnerney on June 18, 2012. Mrs.
Cruickshank Wallace was represented at trial by new
counsel, Anne DelCollo.7 Id. at If 7. At trial, Judge
Mclnerney found against Mrs. Cruickshank-Wallace on
all remaining claims and in favor of Klehr Harrison on
its counterclaim against Mrs. Cruickshank-Wallace for
unpaid legal fees in the amount of $46,661.31. Ich at
If 8. Mr. Wallace was not a party to either the
underlying Mercantile action which the Klehr Harrison
Litigation evolved from or the Klehr Harrison
Litigation.
As the Klehr Harrison Litigation was premised on a
legal malpractice action, expert testimony was required
to support Mrs. Cruickshank-Wallace’s claims. As such,

6 Even assuming arguendo that Mr. Wallace discharged Egan, this
fact does not create an attorney-client relationship or evidence that
Mr. Wallace was in control of the Klehr Harrison Litigation.
7 Attorney DelCollo is neither affiliated with any of the named
Defendants nor party in this action.

A-60
Egan retained the services of Jokelson to serve as Mrs.
Cruickshank-Wallace’s expert witness in that action.
Here, Plaintiffs’ claims against Jokelson are premised
on the contention that Jokelson is liable to each of
them in connection with the expert witness services he
rendered on behalf of Mrs. Cruickshank-Wallace
during the Klehr Harrison Litigation. Id. at U 14.
More specifically, Plaintiffs contend that Jokelson
failed to inform them of his background of having been
disciplined by the Pennsylvania Supreme Court and his
history of having been sued for legal malpractice prior
to being retained as an expert by Egan.8 Id. at f 18.
Plaintiffs’ argument is buttressed by the allegation that
Judge Mclnerney considered Jokelson’s history of
previous discipline and malpractice suits in ruling in
favor of Klehr Harrison and against Mrs. Cruickshank Wallace.
In their Second Amended Complaint, Plaintiffs also
assert that James S. Tupitza, Esquire, and Tupitza &
Associates, P.C (collectively, “Tupitza”) is liable to each
of them for breach of fiduciary duty (Counts V and VI,

8 Jokelson was called to testify as an expert witness at trial on
behalf of Mrs. Cruickshank-Wallace. At trial, Klehr Harrison
attempted to present evidence of Jokelson’s history of discipline
and malpractice suits, but the court specifically prohibited the
introduction of any such evidence. See Klehr Harrison Litigation,
N.T 6/19/12, at 140-141, 221. It stands to reason that because the
court in the Klehr Harrison Litigation did not admit evidence of
Defendant Jokelson’s disciplinary history or malpractice suits,
whether or not Plaintiffs were advised of Jokelson’s background is
irrelevant. Accordingly, the information regarding Defendant
Jokelson’s background did not impact the litigation.

A-61
respectively) and breach of contract (Count VII) in
connection with legal services Tupitza provided to Mrs.
Cruickshank-Wallace in the Klehr Harrison Litigation.
Tupitza was retained to pursue Mrs. Cruickshank
Wallace’s appeal of the trial court’s rulings in favor of
Klehr Harrison. On February 15,2013, Tupitza entered
as new counsel and filed Mrs. Cruickshank-Wallace’s
brief in support of her request for post-trial relief,
which the Court denied on May 9, 2013.
On June 7, 2013, Tupitza, on behalf of Mrs.
Cruickshank-Wallace, timely noticed appeal. However,
Tupitza did not file a timely 1925(b) Concise Statement
of Errors Complained of on Appeal (“Statement”) by the
July 1, 2013 due date.9 Id. at 1 11. On July 9, 2013,
Tupitza filed a Motion for leave with a 1925(b)
Statement nunc pro tunc which was denied on July 24,
2013. On August 8, 2013, the Superior Court dismissed
Mrs. Wallace’s appeal for failure to timely file a 1925(b)
Statement. Id. at Tff 12-14.
Upon learning of the July 24, 2013 denial, Tupitza
notified his liability carrier, CNA Financial
Corporation.10 On August 23, 2013, Tupitza timely
noticed a second appeal but again failed to file the

9 See Order, 6/10/, 2013 (establishing July 1, 2013 due date).
10 We note that Plaintiffs’ contention that Tupitza had a conflict of
interest because CNA Financial Corporation insured both Klehr
Harrison and Tupitza is neither supported in fact nor law.

A-62
September 3, 2013 court ordered Rule 1925(b)
Statement.11 Id. at
13-15.
Plaintiffs’ Second Amended Complaint also asserts
claims against Continental Casualty Company
(“Continental”) and Columbia Casualty Company
(“Columbia”) for Liability in Agency for Breach of
Fiduciary Duties (Count I), Concerted Tortious Conduct
(Count II), and Tortious Interference with Attorney
Contractual Relationship (Count III). Plaintiffs’
contend that Continental and Columbia are wholly
owned subsidiaries by the parent CNA Financial
Corporation (collectively “CNAF” Defendants).12 Id. at
t 20. Plaintiffs advance two theories of liability with
respect to the CNAF Defendants. The first theory is
premised on the claim that the CNAF Defendants
insured both Klehr Harrison and Tupitza, thereby
creating a conflict of interest. The crux of Plaintiffs’
second theory of liability is that CNAF improperly
asserted control over the attorney-client relationship
between Tupitza and Plaintiffs.13 Id. at Tjf 21-22.

11 Tupitza also prepared but did not file a motion for
reconsideration of the July 24, 2013 denial for leave to file a
1925(b) Statement nunc pro tunc.
12 CNA Financial Corporation’s Preliminary Objections to
Plaintiffs’ Second Amended Complaint were sustained and
Plaintiffs’ claims against CNA Financial Corporation were
dismissed with prejudice by Order dated January 5, 2015.
13 Plaintiffs contend that the CNAF advised Tupitza to withdraw
from representation after he failed to file the first 1925(b)
Statement.

A-63
On October 16, 2015, this Court began to conduct oral
argument on all outstanding motions and/or petitions
filed in this matter.14 The Court halted oral argument
for several reasons, namely for clarification as to what
extent Mr. Wallace, who was not a party to either the
underlying Mercantile or Klehr Harrison Litigation,
has standing in this action. Furthermore, the Court
advised Mr. Wallace that he may be committing a
crime by practicing law without a license as to the
prosecution of Mrs. Cruickshank-Wallace’s claims.15
See 42 Pa.C.S.A. § 2524. Finally, the Court expressed
concern regarding the need for expert testimony in this
complex legal malpractice action. Oral argument and
the disposition of the outstanding motions and/or
14 Mrs. Cruickshank-Wallace failed to appear for the scheduled
arguments in these collective matters and a question exists as to
whether she abandoned all of her arguments, claims and requests
for relief which were the subject of the scheduled argument. See
Kohlman v. W. Pennsylvania Hosp., 652 A.2d 849, 850-852 (Pa.
Super. 1994); Commonwealth v. Carrol, 517 A.2d 980,981-982 (Pa.
Super. 1986); McCain v. Curione, 527 A.2d 591 (Pa. Cmwlth.
1987). Mr. Wallace has purported to appear pro se on behalf of
Mrs. Cruickshank-Wallace throughout the course of this litigation
pursuant to a power of attorney that authorizes Mr. Wallace to,
among other things, act as Mrs. Cruickshank-Wallace. See Mot, for
Summary Judgment of Defs.’ Gerard P. Egan, Esquire and Egan
Young Law Firm, 12/22/15, at Ex. K.. It is undisputable that Mrs.
Cruickshank-Wallace has failed to appear for required hearings
and conferences in this matter. Instead, she has designated Mr.
Wallace to appear on her behalf. Mr. Wallace also drafted the
Complaint and answers to discovery requests on Mrs.
Cruickshank-Wallace’s behalf. See Bonnie Cruickshank-Wallace
Dep. Tr., 8/11/15, at 12-16.
15 Mr. Wallace is not an attorney licensed to practice law in this
Commonwealth.

A-64
petitions were stayed pending the filing and resolution
of dispositive motions on the aforementioned issues.
In response to the Courts directive to file dispositive
motions, moving Defendants filed the Motions for
summary judgment now before this Court. On March
10, 2016, oral argument was held on only these
motions.
ANALYSIS
Moving Defendants collectively claim that summary
judgment is appropriate in this matter because Mr.
Wallace lacks standing to assert claims against them.
Movants further contend that Plaintiffs cannot
establish liability or causation without the presentation
of expert testimony. Conversely, Mr. Wallace argues
that he has the requisite standing to assert claims
against the moving Defendants. We agree with this
argument in part. Lastly, each Plaintiff argues that
expert testimony is unnecessary in this action. We
disagree.
A motion for summary judgment is governed by
Pa.R.C.P. 1035.2. Pursuant to this rule, a party is
entitled to summary judgment:
After the relevant pleadings are closed, but
within such time as not to unreasonably delay
trial, any party may move for summary
judgment in whole or in part as a matter of law
(1) whenever there is no genuine issue of any
material fact as to a necessary element of the
cause of action or defense which could be

A-65
established by additional discovery or expert
report, or
(2) if, after the completion of discovery
relevant to the motion, including the
production of expert reports, an adverse
party who will bear the burden of proof at
trial has failed to produce evidence of facts
essential to the cause of action or defense
which the in a jury trial would require the
issues to be submitted to a jury.
Pa.R.C.P. 1035.2.
Summary judgment is appropriate only in cases where
the record clearly demonstrates that there is no
genuine issue of material fact and that the moving
party is entitled to judgment as a matter of law.
Atcovitz v. Gulph Mills Tennis Club, Inc., 812 A.2d
1218, 1221 (Pa. 2002) (quotations omitted). When
considering a motion for summary judgment, the trial
court must take all facts of record and reasonable
inferences therefrom in a light most favorable to the
non-moving party; in so doing, the trial court must
resolve all doubts as to the existence of a genuine issue
of material fact against the moving party. Toy v.
Metropolitan Life Ins. Co., 928 A.2d 186, 195 (Pa.
2007). With these standards in mind, we now turn to
the summary judgment motions pending before this
Court.

A-66
Egan and Jokelson are entitled to summary
judgment on the claims asserted against them by
Mr. Wallace.16
In seeking judicial resolution of a controversy, a party
must establish as a threshold matter that he has
standing to maintain the action. Stilp v.
Commonwealth, 940 A.2d 1227, 1233 (Pa. 2007). In
Pennsylvania, the requirement of standing is
prudential in nature. City of Philadelphia v.
Commonwealth of Pennsylvania, 838 A.2d 566, 577
(Pa. 2003). A challenge to the standing of a party to
maintain the action raises a question of law. In re
Milton Hershey Sch., 911 A.2d 1258 (Pa. 2006). As the
Supreme Court of Pennsylvania explained, “the core
concept of standing is that a person who is not
adversely affected in any way by the matter he seeks to
challenge is not aggrieved thereby and has no standing
to obtain a judicial resolution of his challenge.” William
Penn Parking Garage v. City of Pittsburgh, 346 A.2d
269, 280-81 (Pa. 1975) (plurality).
An individual can demonstrate that he has been
aggrieved if he can establish that he has a substantial,
direct and immediate interest in the outcome of the
litigation. In re Hickson, 821 A.2d 1238, 1243 (2003). A
party has a substantial interest in the outcome of
litigation if his interest surpasses that “of all citizens in
procuring obedience to the law.” Id. at 1243. “The
interest is direct if there is a causal connection between
the asserted violation and the harm complained of; it is

16 Mrs. Cruickshank-Wallace’s standing is not at issue and will not
be addressed.

A-67
immediate if that causal connection is not remote or
speculative.” City of Philadelphia, 838 A.2d at 577.
Thus, the inquiry into standing is to ascertain that a
petitioner has an interest in the subject of the litigation
which is legally sufficient to qualify that person as a
proper party entitled to make the legal challenge to the
matter involved. Pennsylvania Game Commission v.
Department of Environmental Resources, 555 A.2d812
(Pa. 1989); O’Grady v. Centennial School District, 401
A.2d 1388 (Pa. Cmwlth 1979).
In the present case, the record indicates that Mr.
Wallace lacks standing and is not a proper party
entitled to challenge Egan or Jokelson’s legal
representation of Mrs. Cruickshank-Wallace. Similarly,
Mr. Wallace is not a real party in interest with respect
to Egan or Jokelson as required by Rule 2002 of the
Pennsylvania Rules of Civil Procedure.17 The courts
have defined the “real party in interest” in any given
contract or chose in action as a person who has the
power to discharge the duties created and to control a
cause of action and the proceedings brought to enforce
it. Spires v. Hanover Fire Insurance Co., 70 A.2d 828
(Pa. 1950), overruled in part on other grounds by Guy
v. Liederbach, 459 A.2d 744 (Pa. 1983); Kusmaul v.
Stull, 51 A.2d 602 (Pa. 1947). To be the real party in
interest, then, one must not merely have an interest in
the result of the action, but must be in such command
of the action as to be legally entitled to give a complete

17 Rule 2002 provides, in pertinent part, that “all actions shall be
prosecuted by and in the name of the real party in interest....” Pa.
R.C.P. No. 2002.

A-68
acquittal or discharge to the other party upon
performance.
Here, Mr. Wallace’s claims against Egan stem from
Egan’s representation of Mrs. Cruickshank-Wallace.
Our review of the record reveals that Mr. Wallace was
never a party to the underlying Mercantile or Klehr
Harrison Litigation which is the subject of Mr.
Wallace’s claims against Egan and Jokelson. Because
Mr. Wallace was neither a party in the Klehr Harrison
Litigation nor covered by the attorney client privilege,
he cannot establish that he suffered and harm as a
result of Egan’s representation of Mrs. Cruickshank Wallace in that case.18 Specifically, Mr. Wallace is
unable to prove the “case within the case.” The record
unequivocally evidences that Mr. Wallace did not
establish an attorney-client relationship for legal
services with Egan or Jokelson. Mrs. CruickshankWallace was the sole named party in the Klehr
Harrison Litigation. Therefore, only Mrs. Cruickshank Wallace controlled of that action and the proceedings
brought to enforce it.
The record further reflects that although Jokelson was
retained by Egan, Jokelson’s expert witness fees were

18 Tellingly, Mr. Wallace stated during his deposition that he was
satisfied with Mr. Egan’s conduct and billing statements prior to
Egan retaining Jokelson as an expert witness. William Wallace
Dep.Tr., 6/16/15, at 205,210-212,231. Mrs. Cruickshank Wallace’s
assessment of Egan’s representation during this period echoed Mr.
Wallace’s testimony. Bonnie Cruickshank-Wallace Dep. Tr.,
8/11/15, at 76-84.

A-69
paid solely by Mrs. Cruickshank Wallace.19 See Motion
for Partial Summary Judgment of Defendants, Neil E.
Jokelson & Associates, P.C. and Neil E. Jokelson,
Esquire, Seeking Dismissal of All Claims Asserted by
Plaintiff, William Wallace; Motion for Summary
Judgment of Defendants Gerard P. Egan, Esquire and
Egan Young Law Firm, at Exhibit B, D. Jokelson did
not have a fee agreement with either Plaintiff.
Moreover, Mr. Wallace’s deposition testimony
evidences that he did not retain Jokelson as an expert
witness and did not know of Jokelson until after he was
retained by Egan. See William Wallace Dep. Tr.,
6/19/15, at 92-94, 163. Furthermore, during discovery,
Mr. Wallace acknowledged that his only connection to
Jokelson was through a power of attorney from Mrs.
Cruickshank-Wallace. See William Wallace’s Answers
to Jokelson’s First Set of Interrogatories, Exhibit F. As
such we conclude that Jokelson did not owe a legal or
fiduciary duty to Mr. Wallace.
Mr. Wallace may have a spousal interest or an indirect
pecuniary interest in the outcome of this matter beyond
the abstract interest of all citizens in procuring
obedience to the law. However, any indirect interest in
recovering the legal fees and costs that were expended
by Mrs. Cruickshank-Wallace to Egan and Jokelson for
the representation afforded to Mrs. Cruickshank-

19 Mrs. Cruickshank-Wallace paid for Jokelson expert witness
services via personal check drawn off a Sovereign Bank account
solely in her name. Mr. Wallace’s contention that the account
contained comingled marital funds is irrelevant and cannot save
his claims against the Egan Defendants and Codefendant
Jokelson.

A-70
Wallace is simply not the type of interest to confer legal
standing upon him. Consequently, Mr. Wallace is not
a real party in interest and the record before us does
not establishing a sufficient nexus between the claims
asserted by Mr. Wallace against Egan or Jokelson and
the harm complained of.20
Insofar as Mr. Wallace’s contention is concerned that
he dealt with Egan and Jokelson through a power of
attorney from Mrs. Cruickshank-Wallace, thereby
conferring upon him standing in this matter, we
disagree. N.T., 11/16/15, at 80. Mr. Wallace’s power of
attorney from his wife did not give rise to a fiduciary
relationship between Egan or Jokelson and Mr.
Wallace. The power of attorney merely allowed Mr.
Wallace to serve as an agent for Mrs. Cruickshank Wallace. Logic dictates that because Mr. Wallace was
acting on behalf of Mrs. Cruickshank-Wallace, he was
not acting on his own behalf and, therefore, cannot be

20 Even assuming that Mr. Wallace’s breach of contract claim
against Egan and Jokelson did not sound in legal malpractice; it
would still fail. By the time Jokelson was retained in 2011 and
pursuant to the fee agreement, Plaintiffs had already paid Egan a
$100,000 retainer and approximately $7,000 in additional out-ofpocket expenses. William Wallace Dep. Tr., 6/16/15, at 202-203;
Bonnie Cruickshank-Wallace Dep. Tr., 8/11/15, at 78-81. This
amount represented the total fees paid by Plaintiffs to Egan.
Plaintiffs did not pay Egan for his services after Jokelson was
retained. Because Plaintiffs’ total claimed fees were earned by and
paid to Egan, without complaint, prior to the retention of Jokelson,
coupled with the fact that Jokelson’s purported “checkered”
background did not influence Judge Mclnerny’s ruling; Mr.
Wallace’s fee claim fails to demonstrate any actual loss arising
from Egan’s representation.

A-71
deemed to have been in a fiduciary relationship with
Egan or Jokelson.
Moreover, the constitution of this Commonwealth has
exclusively granted to the Supreme Court of
Pennsylvania the power to regulate the practice of law
before all the courts of Pennsylvania.
Pa. Const, art. V, § 10. In particular, subsection (c) of
Article V, section 10 provides:
(c) The Supreme Court shall have the power to
prescribe general rules governing practice, procedure
and the conduct of all courts ... and for admission to the
bar and to practice law....
Pa. Const, art. V, § 10(c).
To help administer admission to the bar, the Supreme
Court has created the Pennsylvania Board of Law
Examiners, which, among other things, establishes
standards for admission to the bar. Pa.B.A.R. 104. The
Supreme Court has also adopted the Code of
Professional Conduct in order to govern the conduct of
those individuals privileged to practice law in this
Commonwealth. Additionally, to assure that lawyers
admitted to practice in the Commonwealth continue
their education to have and maintain the requisite
knowledge and skill necessary to fulfill their
professional responsibilities, the Pennsylvania
Supreme Court has adopted the Pennsylvania Rules for
Continuing Legal Education. Pa.R.C.L.E. 102. See
generally McLaughlin v. Philadelphia Newspapers,
Inc., 348 A.2d 376 (Pa. 1975); Appeal of Hanson, 198 A.
113 (Pa. 1938).

A-72
These stringent requirements are intended to protect
and secure the public’s interest in competent legal
representation. In fact, Mr. Justice (later Chief Justice)
Stern once opined: While, in order to acquire the
education necessary to gain admission to the bar and
thereby become eligible to practice law, one is obliged
to ‘scorn delights, and live laborious days,’ the object of
the legislation forbidding practice to laymen is not to
secure to lawyers a monopoly, however deserved, but,
by preventing the intrusion of inexpert and unlearned
persons in the practice of law, to assure to the public
adequate protection in the pursuit of justice, than
which society knows no loftier aim. Shortz v. Farrell,
193 A. 20, 24 (Pa. 937).
The potential problems created by the use of the power
of attorney as a means of encouraging the unauthorized
practice of law are obvious. Because the practice of law
involves matters of extreme public concern, the
General Assembly has also taken measures to control
and prevent the unauthorized practice of law:
Any person who within this Commonwealth shall
practice law ... without being an attorney at law ...
commits a misdemeanor of the third degree.
42 Pa.C.S.A. § 2524 (Supp.1994).
In this Commonwealth, an individual who is not a
licensed attorney and in good standing with the bar
may not represent a plaintiff through the grant of a
power of attorney. Kohlman, 652 A.2d at 852.
Therefore, in the case at bar, Mr. Wallace’s purported
representation of Mrs. Cruickshank-Wallace through a
power of attorney is not a permissible means by which
Mrs. Cruickshank-Wallace may prosecute her claims in

A-73
this matter.21 Of course, if Mrs. Cruickshank-Wallace
wishes to proceed pro se and prosecute her own claims,
she may do so. However, the power of attorney cannot
be used as a device to license Mr. Wallace to act as an
attorney-at-law thereby circumventing the Supreme
Court of Pennsylvania and laws of this Commonwealth.
See Commonwealth v. Carrol, 517 A.2d 980, 981-982
(Pa. Super. 1986); see also Osei-Afriyie by Osei-Afriyie
v. Med College of Pennsylvania, 937 F.2d 876 (3d Cir.
1991). Accordingly, summary judgment is granted as to
all Mr. Wallace’s claims against Egan and Jokelson.
A genuine issue of material fact exists as to
whether Mr. Wallace has standing or is the real
party in interest to assert claims against Tupitza,
Continental and Columbia.
Upon review of the record, we find as a question of fact
whether the Fee Agreement Addendum (“Addendum”)
executed between Mr. Wallace and Tupitza conferred
standing upon Mr. Wallace to assert claims against
Tupitza, Continental, and Columbia. There is no doubt
that on February 8, 2013, an Addendum identifying
Bonnie Cruickshank-Wallace as Tupitza’s client was
signed by both Mrs. Cruickshank-Wallace and Mr.
Wallace with a power of attorney from Mrs.
Cruickshank-Wallace. Pis.’ Second Am. Compl. at Tf 9.
Mr. Wallace claims the purpose of the Addendum was
to identify him as a client, thereby, also cloaking him

21 Notably, Mr. Wallace’s continued attempts to prosecute Mrs.
Cruickshank-Wallace’s claims in this matter are tantamount to the
unauthorized practice of law.

A-74
with the attorney-client privilege.22 N.T., 11/16/15, at
82. However, the parties dispute whether the
Addendum identifying Mr. Wallace as Tupitza’s client
was acknowledged by Tupitza.23 In considering moving
Defendants Motions for summary judgment, we must
take all facts of record and reasonable inferences
therefrom in a light most favorable to Mr. Wallace.
Therefore, in so doing, we resolve all doubt as to the
existence of a client relationship between Tupitza and
Mr. Wallace in favor of Mr. Wallace. Accordingly,
movants are not entitled to summary judgment on this
issue.
Having determined that a genuine issue of material
fact exists concerning Mr. Wallace’s standing and
contractual relationship with Tupitza, we are also
unable to dismiss Mr. Wallace’s claims against
Columbia and Casualty. Mr. Wallace’s claims against
Columbia and Casualty are clearly derivative in nature
to those asserted against Tupitza. Logic dictates that if
Mr. Wallace has standing to assert claims against
Tupitza than he also has standing to assert claims
against Continental and Columbia. Consequently,

22 This acknowledgement by Mr. Wallace lends further support to
our conclusion that this case is premised on legal malpractice
requiring expert testimony. See infra at 12-15. Mr. Wallace may
not contend that he is covered by the attorney client privilege with
respect to Tupitza and later assert that his claims are only
premised on breach of contract.
23 The Addendum was prepared and signed by Mr. Wallace but not
Tupitza. The Addendum clearly states that Mr. Wallace will be
covered by the attorney-client privilege.

A-75
movants are not entitled to summary judgment on this
issue.
Summary judgment in favor of movants is
appropriate in this matter because Plaintiffs are
precluded from presenting expert testimony in
support of their claims against Attorney
Defendants.
Notwithstanding Mr. Wallace’s inability to
demonstrate standing with regard to Egan and
Jokelson, all claims asserted by each Plaintiff fail for
another reason. Plaintiffs are precluded from offering
expert testimony at trial because they filed certificate
of merits in which they stated that expert testimony is
not necessary in order to prosecute this case. Plaintiffs
are now bound by the certifications pursuant to Pa
R.C.P. 1042.3(a)(3).
Here, Plaintiffs’ certified that expert testimony of an
appropriate licensed professional was unnecessary to
prosecute their claims; we strenuously disagree.
Pa. R.C.P 1042.3 states in relevant part:
(a) In any action based upon an allegation that
a licensed professional deviated from an
acceptable professional standard, the attorney
for the plaintiff, or the plaintiff if not
represented, shall file with the complaint or
within sixty days after the filing of the
complaint, a certificate of merit signed by the
attorney or party that either
(1) an appropriate licensed professional has
supplied a written statement that there exists a

A-76
reasonable probability that the care, skill or
knowledge exercised or exhibited in the
treatment, practice or work that is the subject of
the complaint, fell outside acceptable
professional standards and that such conduct
was a cause in bringing about the harm, or
(2) the claim that the defendant deviated from
an acceptable professional standard is based
solely on allegations that other licensed
professionals for whom this defendant is
responsible deviated from an acceptable
professional standard, or
(3) expert testimony of an appropriate licensed
professional is unnecessary for prosecution of
the claim.
Pa.R.C.P. No. 1042.3.
Based on the context of the Complaint in this case,
Plaintiffs action is obviously premised on legal
malpractice. An action for legal malpractice may be
brought in either contract or tort. Guy v. Liederbach,
459 A.2d 744, 748, (Pa. 1983). See also Trice v.
Mozenter, 515 A.2d 1 0, 15 (Pa. Super. 1986); Hoyer v.
Frazee, 470 A.2d 990, 992 (Pa. Super. 1984) Duke &
Co. v. Anderson, 418 A.2d 613, 616 (Pa. Super. 1980).
Irrespective of whether the cause of action is brought
in breach of contract or tort; where the case is premised
on an underlying cause of action that is alleged to have
been lost as a result of the attorney’s conduct, the
Plaintiff must prove that he would have prevailed in
the underlying case, but for the attorney’s breach of a
duty of a care. See Kituskie v. Corbman, 714 A.2d 1027,

A-77
1029-1030 (Pa. 1998); see also Garcia v. Cmty. Legal
Servs. Corp., 524 A.2d 980, 982 (Pa. Super. 1987).
Specifically, there are three essential elements which
must be established in order to bring an action for legal
malpractice: 1) the employment of the attorney or other
basis for duty; 2) the failure of the attorney to exercise
ordinary skill and knowledge; and 3) that such
negligence was the proximate cause of damage to the
plaintiff. Trice v. Mozenter, 515 A.2d 10 (Pa. Super.
1986), allocatur granted, 523 A.2d 1132 (Pa. 1987); ei
bon ee baya ghananee v. Black, 504 A.2d 281 (Pa.
Super. 1986); Schenkel v. Monheit, 405 A.2d 493, 494
(Pa. Super. 1979).
We recognize that, “[i]f all the primary facts can be
accurately described to a jury and if the jury is as
capable of comprehending and understanding such
facts and drawing correct conclusions from them as are
witnesses possessed of special training, experience or
observation, then there is no need for the testimony of
an expert.” Reardon v. Meehan, 227 A.2d 667, 670 (Pa.
1967). Expert testimony becomes necessary when the
subject matter of the inquiry is one involving special
skills and training not common to the ordinary lay
person. Reardon, supra, Hayes Creek Country Club,
Inc, v. Central Penn Quarry Stripping & Construction
Company, 181 A.2d 301 (Pa. 1962); Pirches v. General
Accident Insurance Company, 511 A.2d 1349 (Pa.
Super. 1986). Moreover, expert testimony is generally
required in legal malpractice cases unless the issue is
so simple, and the lack of skill or want of care so
obvious, as to be within the range of the ordinary
experience and comprehension of the ordinary
layperson. Storm v. Golden 538 A.2d 61, 64 (Pa. Super.

A-78
1988). Expert testimony is required where the alleged
breach of duty is complex such that it necessitates the
aid of an expert. ItL at 65.
The duty and degree of care owed by the attorney
Defendants to the Plaintiffs is clearly at issue in the
present case. Whether an attorney failed to exercise a
reasonable degree of care and skill related to common
professional practice in handling complex litigation is
a question of fact outside the normal range of the
ordinary experience of laypersons. The Pennsylvania
Rules of Civil Procedure place an obligation on a
plaintiff to file an appropriate certificate of merit in a
legal malpractice case. The rules also require a plaintiff
to identify expert witnesses and the substance of their
facts and opinions during discovery when requests for
such information are made. Neither of which was done
in this case. The nature and extent of any duty owed to
Plaintiffs in this matter cannot be expected to be
known by a layperson. In a case as complex as this,
expert testimony is not only relevant to the issues of
liability and damages, but also is crucial to the
development of a defense. Consequently, Plaintiffs’
failure to certify that expert testimony is required and
to produce an expert witness as to the standard of care
under which the attorney Defendants should have
conducted themselves and as to any deviation from
that standard that may have occurred makes Plaintiffs’
case defective as a matter of law.
A jury would be incapable of deciding whether the
attorney Defendants had acted negligently without
hearing from experts concerning Mrs. CruickshankWallace’s likelihood of success in the Klehr Harrison or

A-79
Mercantile Litigation. Accordingly, Plaintiffs needed to
file a certificate of merit attesting to the fact that a
licensed professional had supplied them with a written
statement that there exists a reasonable probability
that Plaintiffs were the victim of legal malpractice. PA.
R.C.P. No. 1042.3(a)(1). Plaintiffs’ did not do so, and
the certificates of merit they filed are binding. See
McCool v. Dep’t of Corr., 984 A.2d 565, 571 (Pa.
Commw. Ct. 2009), as amended (Oct. 28, 2009).
Having already found that Tupitza is entitled to
summary judgment, Plaintiffs claims against
Continental and Columbia must also fail. It reasons
that because Plaintiffs cannot prevail on their claims
against Tupitza; summary judgment is appropriate in
favor of Continental and Columbia. Plaintiffs’
derivative claims could only succeed against insuring
Defendants if the Claims against Tupitza were
successful. Accordingly, the moving Defendants have
met the summary judgment standard on this issue.
BY THE COURT:
Is/ William P. Mahon
William P. Mahon, J.

A-80

APPENDIX J
IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA
NO. 2013-10242-TT
CIVIL ACTION - LAW
[Filed January 5, 2015]
BONNIE CRUICKSHANK-WALLACE
and WILLIAM WALLACE
vs.

)
)
)
)
)
)

CNA FINANCIAL CORPORATION
CONTINENTAL CASUALTY COMPANY, )
COLUMBIA CASUALTY CORPORATION, )
JAMES S. TUPITZA, ESQUIRE and
)
TUPITZA & ASSOCIATES, P.C.
)
Plaintiffs, Pro se.
Theresa Mullaney, Esquire, Attorney for Defendant
CNA Financial Corporation
Edward M. Napierkowski, Esquire and Scott E.
Turner, Esquire, Attorneys for Defendants
Continental Casualty Company and Columbia
Casualty Corporation.

A-81
Arthur W. Lefco, Esquire and Aaron A. Moore, Esquire,
Attorneys for Defendants James S. Tupitza, Esquire
and Tupitza & Associates, P.C.
ORDER
AND NOW, this 5^ day of January, 2015, upon
consideration of Defendant CNA Financial
Corporation’s Preliminary Objections to Plaintiffs’
Second Amended Complaint, Plaintiffs’ Response
thereto, Defendant’s reply brief, Defendant’s Motion to
Strike Plaintiffs’ Answer, Plaintiffs’ response thereto
and additional supplemental briefs filed by both
parties, it is hereby ORDERED and DECREED that
Defendant’s Motion to Strike Plaintiffs’ Answer is
DENIED.1 It is further ORDERED and DECREED that
Defendant’s Preliminary Objections are SUSTAINED
and Plaintiffs’ claims against Defendant are
DISMISSED with prejudice.2
1 Despite our denial of Defendant’s Motion, Plaintiffs are cautioned
to serve all of their pleadings immediately after filing.
2 Pursuant to the Judiciary Act, Pennsylvania courts may exercise
two types of in personam jurisdiction over a non-resident
defendant. 42 Pa.C.S.A. §5301 et seq. General jurisdiction is
evidenced by continuous and systematic contacts with the state.
Specific jurisdiction is focused upon the particular acts of the
defendant that gave rise to the underlying cause of action. HallWoolford Tank Co., Inc, v. R.F. Kilns, Inc., 698 A.2d 80, 82 (Pa.
Super. 1997). Regardless of whether general or specific in
personam jurisdiction is asserted, a defendant’s contacts with the
forum state must be such that the defendant could reasonably
anticipate being called to defend itself in the forum. Kubik v.
Letteri, 532 Pa. 10, 614 A.2d 1110 (1992). Once the movant has
supported its jurisdictional objection, the burden shifts to the party
asserting jurisdiction to prove that there is statutory and

A-82
BY THE COURT:
Is/ Jacqueline C. Cody
JACQUELINE C. CODY, P.J.

constitutional support for the court’s exercise of in personam
jurisdiction. GMAC v. Keller, 737 A.2d 279 (Pa. Super. 1999).
Plaintiffs base their jurisdictional argument on the theory that the
three insurance company defendants are a “corporate combine”. It
is unclear whether Plaintiffs are attempting to pierce a corporate
veil or arguing the “single entity theory”. Regardless, the record
demonstrates that Objecting Defendant does not control the other
two insurance company defendants. See; Ashley v. Ashley, 482 Pa.
228, 393 A.2d 637 (1978); In re Enterprise Rent-A-Car, 735 F.
Supp. 2d 277 (W.D. Pa. 2010); Miners, Inc, v. Alpine Equipment
Corp., 722 A.2d 691 (Pa. Super. 1998).

A-83

APPENDIX K
COURT OF COMMON PLEAS
OF CHESTER COUNTY, PA
Civil Action No. 13-10242
[Filed January 22, 2013]
BONNIE CRUICKSHANK-WALLACE
pro se
and
WILLIAM WALLACE, pro se
Plaintiffs
v.
CNA FINANCIAL CORPORATION, et al
And
JAMES S. TUPITZA, ESQUIRE, et al
Defendants

)
)
)
)
)
)
)
)

)
)
)
)
)

BONNIE CRUICKSHANK-WALLACE
WILLIAM WALLACE
10 Crestview Dr.
Parkesburg, PA 19365
Plaintiffs pro se
610-857-4934
wiU21921 @yahoo.com

A-84
Pa.R.Civ.P. 1042.3 CERTIFICATE OF
MERIT AS TO ATTORNEY DEFENDANTS
JAMES S. TUPITZA. ESQ. and
TUPITZA & ASSOCIATES, P.C.
We, Bonnie Cruickshank-Wallace pro se and
William Wallace, Plaintiff pro se, certify that:
□ an appropriate licensed professional has supplied a
written statement to the undersigned that there is a
basis to conclude that the care, skill or knowledge
exercised or exhibited by this defendant in the
treatment, practice or work that is the subject of the
complaint, fell outside acceptable professional
standards and that such conduct was a cause in
bringing about the harm;
AND/OR
□ the claim that this defendant deviated from an
acceptable professional standard is based solely on
allegations that other licensed professionals for whom
this defendant is responsible deviated from all
acceptable professional standard and an appropriate
licensed professional has supplied a written statement
to the undersigned that there is a basis to conclude
that the care, skill or knowledge exercised or exhibited
by the other licensed professionals in the treatment,
practice or work that is the subject of the complaint,
fell outside acceptable professional standards and that
such conduct was a cause in bringing about the harm;
OR

A-85
expert testimony of an appropriate licensed
professional is unnecessary for prosecution of the claim
against this defendant.
b

Respectfully submitted,
/s/ Bonnie Cruickshank-Wallace
BONNIE CRUICKSHANK-WALLACE
/s/ William Wallace
WILLIAM WALLACE
Dated: January 22, 2013

?

